<html>
<title> - H.R. 1232, VETERINARY PUBLIC HEALTH WORKFORCE EXPANSION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





  H.R. 1232, VETERINARY PUBLIC HEALTH WORKFORCE EXPANSION ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 23, 2008

                               __________

                           Serial No. 110-81


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
48-002 PDF                WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                    COMMITTEE ON ENERGY AND COMMERCE

                   JOHN D. DINGELL, Michigan, Chairman



                    COMMITTEE ON ENERGY AND COMMERCE

                   JOHN D. DINGELL, Michigan, Chairman
HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts         Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
ELIOT L. ENGEL, New York             HEATHER WILSON, New Mexico
ALBERT R. WYNN, Maryland             JOHN B. SHADEGG, Arizona
GENE GREEN, Texas                    CHARLES W. ``CHIP'' PICKERING, 
DIANA DeGETTE, Colorado               Mississippi
    Vice Chairman                    VITO FOSSELLA, New York
LOIS CAPPS, California               ROY BLUNT, Missouri
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO MACK, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana               

_________________________________________________________________

                           Professional Staff

              Dennis B. Fitzgibbons, Chief of Staff
               Gregg A. Rothschild, Chief Counsel
                   Sharon E. Davis, Chief Clerk
              David Cavicke, Minority Staff Director

                                  (ii)

                         Subcommittee on Health

                FRANK PALLONE, Jr., New Jersey, Chairman
HENRY A. WAXMAN, California          NATHAN DEAL, Georgia,
EDOLPHUS TOWNS, New York                 Ranking Member
BART GORDON, Tennessee               RALPH M. HALL, Texas
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
GENE GREEN, Texas                    HEATHER WILSON, New Mexico
    Vice Chairman                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              STEVE BUYER, Indiana
LOIS CAPPS, California               JOSEPH R. PITTS, Pennsylvania
TOM ALLEN, Maine                     MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
ELIOT L. ENGEL, New York             SUE WILKINS MYRICK, North Carolina
JAN SCHAKOWSKY, Illinois             JOHN SULLIVAN, Oklahoma
HILDA L. SOLIS, California           TIM MURPHY, Pennsylvania
MIKE ROSS, Arkansas                  MICHAEL C. BURGESS, Texas
DARLENE HOOLEY, Oregon               MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          JOE BARTON, Texas (ex officio)
JIM MATHESON, Utah
JOHN D. DINGELL, Michigan (ex officio)



                             C O N T E N T S

                              ----------                              
                                                                   Page
 Hon. Frank Pallone Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     1
Hon. Nathan Deal, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     2
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................     3
Hon. Charles W. ``Chip''Pickering, a Representative in Congress 
  from the State of Mississippi, opening statement...............     4
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................     5
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................     6
Hon. Edolphus Towns, a Representative in Congress from the State 
  of New York, prepared statement................................     7
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     8

                               Witnesses

Marguerite Pappaioanou, D.V.M., M.P.V.M., Ph.D., D.A.C.V.P.M., 
  Executive Director, Association of American Veterinary Medical 
  Colleges (AAVMC), Washington, D.C..............................     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................    58
Ron DeHaven, D.V.M., M.B.A., Executive Vice President, American 
  Veterinary Medical Association (AVMA), Schaumburg, IL..........    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................    64
Alan Kelly, B.V.Sc., M.R.C.V.S., Ph.D., Dean Emeritus, University 
  of Pennsylvania, School of Veterinary Medicine, New Bolton 
  Center, Kennett Square, PA.....................................    18
    Prepared statement...........................................    21
    Answers to submitted questions...............................    65
Sheila W. Allen, D.V.M., M.S., Dean, College of Veterinary 
  Medicine, University of Georgia, Athens, GA....................    33
    Prepared statement...........................................    34

                           Submitted Material

H.R. 1232........................................................    53
.................................................................

 
  H.R. 1232, VETERINARY PUBLIC HEALTH WORKFORCE EXPANSION ACT OF 2007

                              ----------                              


                      WEDNESDAY, JANUARY 23, 2008

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Frank 
Pallone, Jr. (chairman) presiding.
    Members present: Representatives Pallone, Towns, Green, 
Capps, Baldwin, Hooley, Matheson, Deal, Pitts, Murphy, and 
Pickering.
    Staff present: Lauren Bloomberg, Melissa Sidman, Chad 
Grant, Bobby Clark, Katherine Martin, and Jessica McNiece.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. The subcommittee hearing is called to order. 
Today we are having a hearing on H.R. 1232, the Veterinary 
Public Health Workforce Expansion Act. And I will recognize 
myself for an opening statement. I first of all want to thank 
my colleague and the chief sponsor of the bill, Ms. Baldwin, 
for her work on this legislation. You should know that she had 
been asking that we have this hearing for some time, and she is 
very aggressive in these matters. The United States is 
currently facing a significant shortage of veterinary medical 
officers. Our Colleges of Veterinary Medicine produce only 
2,500 graduates a year and are operating at full capacity. An 
estimated 50 percent of public health service veterinarians are 
currently at retirement age, and the U.S. Census Bureau 
predicts that based on current population growth and the 
corresponding growth in animal populations there will be a 
shortage of 15,000 veterinarians by 2025.
    These statistics are particularly alarming when taking into 
account that veterinarians not only perform routine animal care 
but they are also vital providers in the public health sector. 
Veterinarians work in food safety and animal disease control. 
They work in the field of bio-security and homeland security, 
and they conduct crucial research on domestic and foreign 
animal diseases as well as on animal diseases that are 
transmitted from animals to humans. In fact, the American 
College of Veterinary Preventative Medicine actually requires 
its members to have proficiency in areas of public health, 
including the fields of epidemiology and bio-statistics, food 
safety, infectious and parasitic diseases, environmental health 
and toxicology, and public administration and health education.
    The steady threat of diseases such as West Nile Virus or 
Lyme Disease, which is particularly an acute problem in my home 
state of New Jersey, as well as the recent outbreaks of food 
borne illnesses just amplify the importance of veterinarians 
serving in the public health sector and how they are becoming 
more and more crucial to protecting our citizens from 
devastating diseases. In fact, approximately 60 percent of 
infectious disease organisms are transmitted by animals, and 75 
percent of emerging infectious diseases are passed from animals 
to humans. The Centers of Disease Control and Prevention, CDC, 
estimates that food borne diseases such as salmonella and E. 
coli are responsible for roughly 5,000 deaths a year.
    Improving the safety of our nation's food supply and 
reducing the number of food borne illnesses is a top priority 
for me and many of my colleagues on this subcommittee. We have 
had hearings, and Chairman Dingell and I have introduced 
legislation to bolster the regulatory framework at FDA 
improving research and increasing FDA's oversight in order to 
prevent contamination of our nation's food supply. But there is 
only so much we can do from a regulatory perspective. We need 
to support and increase the workforce who will carry out these 
tasks, and H.R. 1232 would compliment our efforts thus far by 
strengthening the veterinary workforce we rely upon to conduct 
surveillance and research into zoonotic diseases that threaten 
our food supply as well as conduct important education and 
outreach initiatives associated with food-animal production.
    This legislation looks to solve the impending veterinary 
shortage crisis by establishing a competitive grant program to 
expand capacity and services at veterinary schools. This would 
include increased teaching labs, research facilities, 
classrooms, and administrative space. This expansion will allow 
schools to increase enrollment and produce the next generation 
of veterinary medical officers. It has been 30 years since the 
Federal government has provided funding to increase the number 
of veterinarians in our country. Considering the looming 
shortage of these critical public health specialists, now is 
the time for us to act once more.
    And again I want to thank Ms. Baldwin for her efforts on 
this cause, and I would also like to thank our witnesses for 
appearing before us today to share their expertise. I know the 
subcommittee has so many things to deal with but I do think 
that this is a very important issue that we need to move 
forward on. And I now recognize my colleague from Georgia, Mr. 
Deal.
    [H.R. 1232 appears at the conclusion of the hearing.]

  OPENING STATEMENT OF HON. NATHAN DEAL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Deal. Thank you, Mr. Chairman. I would like to start 
off by issuing a warm welcome to Dr. Sheila Allen, who is the 
Dean of the College of Medicine at the University of Georgia. 
We have met before on this very subject, and I am sure that she 
will share some of those same opinions with the committee today 
about the challenges that our current veterinary schools face 
in providing the necessary new veterinarians for our nation. 
Many of us have heard about the variety of roles played by 
individuals with training in veterinary medicine from caring 
for personal pets to playing an integral role in the livestock 
industry by maintaining the health of animals used for food 
consumption and also inspection of the meat itself and the 
products that are produced.
    Veterinarians help insure the safety of the nation's food 
supply and they are uniquely situated to address the growing 
threat of animal-related diseases. Unfortunately, our 
veterinary schools are not equipped to meet this growing need. 
Despite a high number of individuals interested in continuing 
their education at the School of Veterinary Medicine the 
schools cannot meet the demand. As a result, I have heard 
anecdotally, as I am sure some of you have, that it is harder 
to get into vet school than it is into medical school. This has 
the potential to create a dangerous public health problem as 
the demand for veterinary services continues to exceed the 
supply.
    I hope that today's hearing can focus on the reasons for 
low number of veterinary schools and the growing shortage of 
veterinarians. I also think it is important that we insure 
money spent on expanding the infrastructure of our vet schools 
translates into more veterinarians working in the fields with a 
shortage or in those fields that meet a public health need. I 
want to thank all of our witnesses for their attendance today. 
We look forward to your testimony. Thank you, Mr. Chairman.
    Mr. Pallone. Thank you. I should point out to all of you 
that unfortunately we have the debate and the vote on the 
override for SCHIP, the Children's Health Initiative, going on 
at the same time as this hearing this morning so members will 
float in and out including myself, but we are going to do the 
best we can. We never know when these things come up when we 
plan our hearings. Next I recognize our vice chair, Mr. Green.
    Mr. Green. Mr. Chairman, I thank you for explaining that 
because we have an Oversight and Investigations hearing on 
nuclear proliferation. I might have to leave shortly. But I 
would like to ask unanimous consent to place my statement in 
the record so we could go on with the witnesses. But thank my 
colleague from Wisconsin. I am a co-sponsor of the bill. And 
coming from Texas, I am surprised our ranking member didn't 
have somebody from Texas A&M here because that is our 
veterinary school in Texas. Since my son is an Aggie, not a 
veterinarian, but an Aggie, I would make sure that we do that. 
Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Green follows:]

                      Statement of Hon. Gene Green

    Mr. Chairman, I am pleased we are holding this hearing 
today on H.R. 1232, the Veterinary Public Health Workforce 
Expansion Act. As a cosponsor of this bill, I am please that we 
are moving this bill through the committee.
    Texas A&M is the only veterinary college near my district 
and one of two in the state of Texas.
    Throughout the U.S. there are only 28 Colleges of 
Veterinary Medicine producing approximately 2,500 veterinarians 
each year and those schools are at full capacity.
    According to the Bureau of Labor and Statistics, currently 
there are 86,000 practicing veterinarians in the U.S. However, 
fifty percent of those veterinarians are now eligible for 
retirement and by 2012, there will be nearly 28,000 open 
veterinary jobs. That is a turnover rate of nearly 38%.
    Over the next 40 years, the American Association of 
Veterinary Medical Colleges estimates, in order to simply 
maintain their current level of service, they will need to open 
somewhere in the area of nine new colleges. But, the federal 
government has not provided general funding to increase the 
number of veterinarians in over 30 years.
    In recent years, medical issues from human-wildlife have 
been highlighted in the media. Avian flu, Foot and Mouth 
Disease, West Nile Virus, and SARS are all diseases associated 
with human to wildlife contact. Additionally, the CDC estimates 
that 80% of potential bioterror agents are infectious diseases 
that spread from animals to humans.
    Veterinarians play a crucial role in this medical area 
because they are they only health professionals trained to link 
animal and human diseases, food safety, and bioterrorism 
agents.
    The Veterinary Workforce Expansion Act will help veterinary 
colleges by creating a competitive grants program to increase 
the number of veterinarians in the US. These grants will expand 
capacity and services at existing schools.
    We don't want to expose ourselves to an animal disease 
outbreak or a bioterrorism attack simply because we didn't 
anticipate a veterinary shortage. This piece of legislation is 
a chance for us to increase the number of veterinarians in the 
U.S.
    I strongly support this bill and I urge my colleagues to do 
so as well. Thank you Mr. Chairman, I yield back my time.
                              ----------                              

    Mr. Pallone. Thank you. Now I recognize Mr. Pickering from 
Mississippi, who is the lead Republican on the legislation.

  OPENING STATEMENT OF HON. CHARLES W. ``CHIP'' PICKERING, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Pickering. Thank you, Mr. Chairman, and I appreciate 
the chance to come and sit on the subcommittee this morning. I 
want to thank the lead sponsor this year, Congresswoman 
Baldwin, and thank her for her partnership on this very 
important initiative. With only 28 veterinary schools around 
the country and the critical link between public health and 
animal health, and as we look at the threats that could come to 
our nation whether it is Avian flu or through some type of 
bioterrorism that this type of approach that will provide the 
grants to help expand the infrastructure, build the 
institutions, and most importantly bring the resources to bear 
to train the people and to give us the leadership that we need 
around the country whether it is in our Federal agencies and 
our military or in our institutions and in private practice all 
of this is critical infrastructure with critical personnel that 
does make a difference for our country, and so I proudly join 
Congresswomen Baldwin as we look to have this bill now in its 
second Congress hopefully pass in this Congress and to be 
signed into law so that we can promote the very important 
issues of the Veterinary Public Health Expansion Act. Mr. 
Chairman, with that I yield back, and I thank you and the 
committee for your attention to this very important matter.
    Mr. Pallone. Thank you. The gentlewoman from Wisconsin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman, and I very much 
appreciate the fact that you are holding this hearing today. I 
thank our witnesses, and I also appreciate the co-sponsorship 
of Mr. Pickering. It has been a pleasure to work with you on 
this bill. I also recognize the fact that a number of our 
colleagues on this committee have taken note of how important 
this particular piece of legislation is and have joined in the 
co-sponsorship of it. As we will hear more during this 
morning's testimony of our witnesses veterinarians are truly 
more than the people who care for our cats and dogs, and while 
I am quite fond of my two cats I am glad to have a good 
veterinarian, but I am also glad that there are veterinarians 
out there who focus on large public health threats.
    The interaction between human health and animal health I 
very clear. It seems like every year we have a new public 
health threat that dominates the newspaper headlines whether it 
is Avian flu or West Nile Virus, Mad Cow Disease, Monkey Pox, 
or antibiotic resistance. It is clear that there is a great 
need for integrated animal and human health surveillance, 
diagnostic laboratory systems, and delivery of effective health 
interventions among animal, human, and public health 
professions, and veterinarians are uniquely positioned to view 
health through the lens of public health impacted to understand 
how human and animal health interact.
    However, as we have heard, we are woefully underprepared to 
meet these public health challenges. Currently there are 86,000 
veterinarians in the United States who are trained in only 28 
domestic colleges of veterinary medicine. Veterinarians make up 
less than 1 percent of the public health workforce, yet they 
play such a vital role in protecting the public health. It is 
estimated that we currently have a shortage of 1,500 
veterinarians, and as we have heard also from previous opening 
statements this shortage is expected to grow. But this shortage 
is not for lack of interest. At the University of Wisconsin 
Madison's Veterinary School they receive far more applications 
than there are spaces available.
    The facilities are designed to accommodate 80 students per 
class. Most recently, there were 1,144 applications for the 
class of 2011, 1,144 applicants for 80 spaces. If we don't 
address these capacity issues soon, we will find ourselves 
dangerously under prepared and ill equipped to deal with future 
public health threats. H.R. 1232, the Veterinary Public Health 
Workforce Expansion Act, would establish a competitive grant 
program to expand capacity at veterinary schools so that we can 
develop a public health workforce that is prepared to work at 
the interface of human, animal, and environmental health. Mr. 
Chairman, again thank you for holding this hearing and thank 
you to our expert witnesses for joining us today. I yield back 
my remaining time.
    Mr. Pallone. Thank you. The gentlewoman from California, 
Ms. Capps.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Capps. Thank you, Chairman Pallone. Thank you for 
holding the hearing. I appreciate that our witnesses are here 
with their expertise, and I don't think there is going to be a 
lot of controversy about this procedure today. I echo the 
remarks that have been made by my colleagues. We all know, and 
it is actually a matter of public awareness, I believe, that we 
all will play a role in getting the word out that veterinary 
science is an essential component of our public health 
workforce. Public health veterinarians in conjunction with 
nurses, doctors, microbiologists, and many others help to 
protect and enhance the health of our nation and the 
international community. It is really a team effort.
    I am very proud to be a co-sponsor of H.R. 1232, the 
Veterinary Public Health Workforce Expansion Act 2007, pleased 
that it was introduced by my colleague, Tammy Baldwin, and for 
the bipartisan support that it has. This legislation is one of 
many necessary steps we can take to shore up the exceptional 
public health workforce that our country needs and deserves and 
is underfunded and understaffed in almost every arena, this 
being one example and a very primary one. I am usually the 
person here speaking about the dire shortage of nurses as my 
colleagues know full well, but unbelievably I have to 
acknowledge public health veterinarians are even in shorter 
supply, and I know that is going to be the under current of the 
discussion today.
    Public health veterinarians bring critical expertise to 
disease prevention, bioterrorism preparedness, and food safety. 
I don't believe the public quite understands the values here, 
and I just say right off the bat that I want to work with our 
committee because it starts in Congress. I don't know that 
enough of our colleagues understand the importance of this work 
and that is one of the roles that we can play in the country, 
and I hope we will do that. Funding will be another aspect of 
it, I am sure, eventually or as we go along. But in this age of 
ever increasing global population, people are becoming more 
susceptible to zoonotic disease, I don't think again most of 
the public understands that 75 percent of the new diseases that 
have affected humans in the past 10 years have originated from 
plants or from animals or animal parts.
    This is astounding, and I think once the public understands 
this they are going to be very interested in supporting the 
efforts that we share here. Public health veterinarians are 
specifically trained to understand and identify diseases in 
animals and tirelessly work to prevent the diseases spread to 
humans. That is a vital piece in global health. If you are 
going to start at the top of the line or some people would 
prefer to start at the bottom and work up. I just want to point 
out that in my home state of California just last year we had 
an E. coli breakout in our Spinach crop, and that was 
disastrous to a large part of our economy, terrified a lot of 
people. We should be eating more fresh vegetables and instead 
people began to--they wouldn't go near the spinach part of the 
produce. And so it was a public health veterinarian that we 
must all thank who helped identify the cause of that particular 
disease and its manifestation and to control the spread. This 
is how vital this population is, this workforce.
    With bioterrorism a greater threat than ever before, we are 
going to be relying more and more on public health 
veterinarians who play a crucial role in developing our 
country's bioterrorism response plan. This I think some people 
understand and other people need to be educated about. With all 
the benefits public health veterinarians bring to our public 
health workforce our society needs to make every opportunity, 
and starting with this one, to support their work. H.R. 1232 
does that, and I am proud to support it. Again, I look forward 
to our witnesses and yield back.
    Mr. Pallone. Thank you, and thank you for all your support. 
I think the panel may or may not know that Ms. Capps plays a 
major role here in trying to draw attention to the need--the 
shortage of health care professionals in so many respect, which 
is really so crucial so thank you. Next, I recognize the 
gentleman from Pennsylvania, Mr. Pitts, and I told Congressman 
Pitts that I had the fortune of going to his district to look 
at the University of Pennsylvania veterinary school farm campus 
essentially, and it was so beautiful just to ride out there. 
But I also told him that there were--obviously Penn is one of 
the major veterinary schools in the country but when I was 
looking around at the facilities they needed work so that was 
sort of an eye opening to me to see that even one of the what I 
guess is probably one of the top notch schools in the country 
still has a lot of infrastructure needs. I recognize the 
gentleman.
    Mr. Pitts. Thank you, Mr. Chairman. I am sorry I am late. 
But I look forward to hearing the witnesses today on this very 
important bill. I will submit my statement for the record.
    DIDN'T SUBMIT STATEMENT
    Mr. Pallone. And next the gentleman from New York, Mr. 
Towns.
    Mr. Towns. Mr. Chairman, I will submit my entire statement 
for the record, but let me just make 1 or 2 comments because I 
am anxious to hear from the witnesses. As people travel more 
and carry diseases stemming from animal contact, and as our 
food supply comes into our ports from foreign sources, we need 
to insure that we are safe and that our food is safe. 
Veterinarians will assist our nation in coping with the 21st 
century challenges relating to food safety and animal disease 
control, bio security and homeland security research on 
domestic and foreign animal diseases, especially those animal 
diseases that affect humans.
    I welcome our witnesses, and thank you, Mr. Chairman, for 
holding this hearing. I really hope that one thing will come 
out that we will increase the amount of seats for veterinarians 
because it seems to me that that is something that we must do. 
And I want to salute Congresswoman Baldwin for her work in this 
area, and also Senator Wayne Allard's efforts as well, and I 
look forward to working with them in terms of making this a 
reality. On that, I yield back, Mr. Chairman.
    [The prepared statement of Mr. Towns follows:]

                    STATEMENT OF HON. EDOLPHUS TOWNS

    Thank you, Mr. Chairman for holding this hearing on, "H.R. 
1232, Verterinary Public Health Workforce Expansion Act of 
2007", of which I am a co-sponsor.
    I thank Congresswoman Tammy Baldwin and Congressman Chip 
Pickering for introducing this bill in the House, and Senator 
Wayne Allard, a veterinarian, who first introduced it in the 
Senate. This bill would amend the public health service act to 
establish a competitive grant program to build capacity in 
veterinary medical education and expand the workforce of 
veterinarians engaged in public health practice and biomedical 
research. We must avert an estimated shortage of 15 thousand 
veterinarians over the next 20 years. For the nation's 
survival, we must do this.
    As a congressman from the proud 10th Congressional District 
of New York, I can picture from history books, shantytown life 
in my dear Brooklyn community of the Eighteen Hundreds, when 
many raised chickens, goats, pigs and cows. In 1879, Lachlan 
McLean became the first veterinary inspector appointed in 
Brooklyn. He pushed for veterinarians to be in charge of meat 
inspection. The New York State Veterinary Medical society, 
which represents more than 3,500 veterinarians in New York 
state, was founded in 1890. Its leaders were the pioneers of 
modern veterinary medicine and were instrumental in introducing 
a practice act for veterinary medicine into law in 1895, when 
veterinarians joined physicians as one of the first licensed 
professions in New York state.
    Today, as people travel more and carry diseases stemming 
from animal contact, and as our food supply comes into our 
ports from foreign sources, we need to ensure that we are safe 
and that our food is safe. Veterinarians will assist our nation 
in coping with the twenty-first century challenges relating to 
food safety and animal disease control; biosecurity and 
homeland security; research on domestic and foreign animal 
diseases, especially those animal diseases that affect humans; 
and more. Lastly, we need the resources to ensure the health of 
our beloved family pets.
    I welcome our witnesses and urge my colleagues support.
    Thank you, Mr. Chairman.
    ###
                              ----------                              

    Mr. Pallone. Thank you. The other gentleman from 
Pennsylvania, Mr. Murphy.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. And thank you for 
holding a hearing to recognize the needs of veterinarians. 
Pennsylvania's number 1 part of our economy is agriculture and 
much of that is dealing with large animals, of course. One of 
my counties in my district, Washington County, is a state 
leader, for example, in sheep and lamb production. And I know 
that the issues involved with the veterinarians and making sure 
we have enough of them who are well trained continues to be a 
concern as well as others who work in the health care sector of 
veterinary medicine. Often times when we think of veterinarians 
we think of those who take care of our dogs and our parakeets, 
et cetera, but let us not forget they are an essential part of 
our economy, and they also are really an essential part of 
other issues that we have dealt with in this committee and that 
has to do with such things as food and toxic substances that 
come through that affects our animals. They are often times the 
front line of identifying what it is that is affecting our 
animals so I am pleased we are working on these issues that 
deal with training and education our veterinarians in the 
future.
    Often times in America we only know of veterinarians from 
what we have seen about James Harriet who has made something of 
a hero of everybody who is out there slogging through the mud 
in the barn as well as seeing our dogs and cats in their 
offices but let us not forget that they are a front line of an 
essential part of our economy and certainly that way in 
Pennsylvania. So I thank you for pointing out their needs for 
their future, Mr. Chairman.
    Mr. Pallone. Thank you. I think that concludes our opening 
statements by members of the subcommittee so we will now turn 
to the panel. Let me welcome all of you and introduce you. I 
will start on my left with Dr.--I was told it was Pappaioanou. 
Did I get that right?
    Dr. Pappaioanou. Yes.
    Mr. Pallone. That was easy because we have a Congressman 
Capuano. She is Executive Director of the Association of 
American Veterinary Medical Colleges based here in Washington. 
Next we have Dr. Ron DeHaven, who is Executive Vice President 
of the American Veterinary Medical Association from Illinois. 
And then we have Dr. Alan Kelly, who is Dean Emeritus of the 
University of Pennsylvania School of Veterinary Medicine. It 
has you down as New Bolton Center, which is where I went so 
thank you for taking me there. And then we have Dr. Sheila 
Allen, who is Dean of the College of Veterinary Medicine at the 
University of Georgia in Athens, Georgia.
    The way we work it, we have 5-minute opening statements. 
Those become part of the record. And each witness may in the 
discretion of the committee submit additional brief and 
pertinent statements in writing for inclusion in the record, 
and we may also ask you to do some follow-up written responses 
to our questions. So I will start now with Dr. Pappaioanou for 
a 5-minute opening statement.

 STATEMENT OF MARGUERITE PAPPAIOANOU, D.V.M., M.P.V.M., PH.D, 
   D.A.C.V.P.M., EXECUTIVE DIRECTOR, ASSOCIATION OF AMERICAN 
     VETERINARY MEDICAL COLLEGES (AAVMC), WASHINGTON, D.C.

    Dr. Pappaioanou. Good morning, Mr. Chairman, and members of 
the committee. First of all, we would like to very much thank 
Congresswoman Baldwin, Congressman Pickering, and Senator 
Allard for leadership on this issue and the support by many of 
you as expressed in your opening comments. I am Marguerite 
Pappaioanou, Executive Director of the Association of American 
Veterinary Medical Colleges, the organization that coordinates 
the national and international affairs of all 28 U.S. Colleges 
of Veterinary Medicine, 9 Departments of Veterinary Science, 8 
Departments of Comparative Medicine, and 14 other veterinary 
medical institutions in the U.S., Canada, the UK, and 
Australia.
    Prior to joining AAVCM November 1, I was Professor of 
Infectious Disease Epidemiology at the University of Minnesota, 
and for 21\1/2\ years from 1983 through 2004, I was an 
epidemiologist on staff at the Centers for Disease Control and 
Prevention as a veterinary officer in the Commissioned Corps of 
the U.S. Public Health Service. I am pleased to provide 
information on the roles of veterinarians in protecting public 
health and food safety and the importance of the Veterinary 
Public Health Workforce Expansion Act to strengthen our 
national security and preparedness. Strong links exist between 
human and animal health, 61 percent of over 1,400 infectious 
disease organisms that cause illness in humans, 75 percent of 
emerging infectious diseases and 5 out of 6 CDC category A 
bioterrorism agents are transmissible from animals to people.
    In the U.S. there are an estimated 85,000 veterinarians 
compared to 800,000 physicians. Graduating veterinarians swear 
that they will use their scientific knowledge and skills for 
the benefit of society through the promotion of public health 
and the advancement of medical knowledge in addition to the 
health and well being of animals. Approximately 2,800 
veterinarians serve in public health and food safety positions 
across Federal, state, and local government and academia. 
Across CDC centers approximately 85 veterinarians on staff and 
in leadership positions conduct investigations of infectious, 
food borne and environmental disease outbreaks in the United 
States and internationally.
    They conduct surveillance for diseases, conditions spanning 
the spectrum of public health threats. They design, implement, 
and evaluate disease and injury prevention and control, and 
emergency and bioterrorism preparedness and response programs. 
They address public health threats emanating from the illegal 
importation of exotic animals. They conduct public health 
research. Veterinarians at CDC and FDA monitor and track the 
magnitude and trends of food borne infections in people, the 
source of infections, and anti-microbial resistance of food 
borne pathogens. Following the 9/11 attacks in New York City 
CDC veterinarians conducted human disease and injury 
surveillance in local hospitals. In the 2002 anthrax 
bioterrorism attacks CDC veterinarians conducted surveillance 
for new human cases of anthrax across affected cities and 
states.
    A veterinarian from EPA, Environmental Protection Agency, 
led environmental clean-up efforts right here on Capitol Hill. 
Approximately 85 veterinarians at NIH oversee the health and 
welfare care research for research animals providing expertise 
in laboratory animal medicine, surgery, toxicology, and 
comparative pathology to insure the highest quality research. 
At FDA approximately 115 veterinarians are engaged in policy 
planning, oversight of new animal drug reviews and approvals, 
development of screening tests for drug residues in meat and 
milk, and research. Currently, two of FDA's five centers are 
veterinarians. At EPA approximately 20 veterinarians address 
adverse health effects of air, drinking water, and terrestrial 
pollution and environmental contamination, emergency 
preparedness and response needs.
    Many of the 500 veterinarians in the Army and Air Force are 
in positions protecting human health of our troops. In the 
Department of Homeland Security approximately 10 veterinarians 
serve in the Medical Affairs Office and in FEMA on issues of 
national emergency preparedness and response. At the state 
level veterinarians oversee infectious, chronic, and 
environmental disease and injury surveillance, prevention, 
control, and emergency preparedness programs. Veterinary 
diagnosticians and pathologists at veterinary diagnostic 
laboratories test for causes of disease outbreaks. At 
universities veterinarians conduct biomedical research and 
develop animal models for the study of human and animal 
diseases.
    Veterinarians offer expertise in comparative medicine 
having studied diseases of multiple species. They receive 
significant amounts of training on diseases that are 
transmitted from animals to humans. They are taught population 
based approaches to disease prevention and control. Their 
unique training brings important expertise to the U.S. public 
health workforce. Many more are needed to confront today's 
multi-faceted challenges to public health and food safety. 
Thank you for this opportunity to discuss how veterinarians 
protect human health and the importance of the Veterinary 
Public Health Workforce Expansion Act to strengthen our 
national security and preparedness. I would be pleased to 
respond to any question.
    [The prepared statement of Dr. Pappaioanou follows:]

                Testimony of Dr. Marguerite Pappaioanou

    Good morning, Mr. Chairman and Members of the Committee. I 
am Marguerite Pappaioanou, Executive Director of the 
Association of American Veterinary Colleges, or AAVMC, the 
organization that represents the future of veterinary medicine. 
AAVMC coordinates the national and international affairs of all 
28 US Colleges of Veterinary Medicine, 9 Departments of 
Veterinary Science, 8 Departments of Comparative Medicine, and 
14 other veterinary medical institutions in the US, Canada, the 
UK, and Australia. Prior to joining AAVMC this past November 1, 
2007, I was Professor of Infectious Disease Epidemiology in the 
School of Public Health, with a joint appointment in the 
College of Veterinary Medicine at the University of Minnesota 
from 2005-2007, conducting research on the human-animal 
interface of avian influenza, and for 21 + years spanning the 
period from 1983 through 2004, I was as an epidemiologist at 
the US Centers for Disease Control and Prevention as a 
Commissioned Officer of the US Public Health Service. At CDC I 
began as an epidemic intelligence service officer and later as 
staff, conducted research on malaria prevention and control in 
Africa, designed and led implementation of disease surveillance 
for HIV infections in the US, guided and supported the 
development of the US Guide to Community Preventive Services, 
and as Associate Director of Science and Policy in CDC's Office 
of Global Health, coordinated CDC's research and programs in 
Africa and Asia. I received my Doctor of Veterinary Medicine 
degree from Michigan State University in 1972, Masters of 
Preventive Veterinary Medicine and Doctor of Philosophy degrees 
from the University of California, Davis, in 1976 and 1982, 
respectively, and am a diplomat of the American College of 
Veterinary Preventive Medicine.
    As a veterinarian having worked directly in public health 
for almost my entire career, I am pleased to provide the 
Committee with information on the essential role that 
veterinarians play in protecting public health and the 
necessity for the HR 1232, the Veterinary Public Health 
Workforce Expansion Act.
    Although the public at large understands the important role 
that veterinarians play in promoting and protecting the health 
of our companion animals, largely unappreciated are the 
essential functions and roles that veterinarians play in 
protecting human health, and in promoting and protecting our 
national security and emergency preparedness and response 
capabilities at international, national, state, and local 
levels across both the public and private sectors.
    Strong links exist between human and animal health- 
including shared susceptibility across human, domestic animals, 
and wildlife species to hundreds of infectious disease agents 
that are spread though direct contact, contamination of food 
and water, insect vectors, or by intentional introduction such 
as a bioterrorist attack. Increased opportunities for 
transmission of infectious diseases from animals to humans are 
resulting from growing close contact between humans and their 
companion animals, human populations moving into peri-urban and 
rural environments as our human population grows in size, rapid 
travel and movement of people and their animals, changes in 
climate affecting insects and small mammals that can spread 
disease, globalization of our food supply, and changes in our 
food production systems.
    In 2003, the Institute of Medicine (IOM) issued a report, 
"Microbial Threats to Health: Emergence, Detection, and 
Response". That report made several recommendations for 
preventing and controlling microbial threats to human health, 
including the recommendation that human and animal health work 
more closely together. The IOM described thirteen factors 
involved in the emergence of infectious diseases, with a 
majority comprising agricultural or animal health issues that 
inevitably affect human health. The report also recognized the 
growing threat from insect-borne and zoonotic diseases-those 
diseases transmitted from animals to humans. The IOM used the 
example of the SARS outbreak in 2003 to demonstrate the close 
ties between U.S. and global health, and that controlling 
infectious diseases would require global awareness and a focus 
on the overlap of animal and human health.
    Approximately 61% of over 1400 infectious disease organisms 
that cause illness in humans, and 75% of emerging infectious 
diseases, such as West Nile Virus, avian influenza, monkeypox, 
E Coli O157, bovine tuberculosis among others-are caused by 
organisms transmissible from animals to people. These zoonotic 
infectious diseases cause many outbreaks nationally and 
internationally each year, with significant adverse health 
outcomes. In addition, the highest-priority bioterrorism agents 
listed by CDC (CDC Category A agents) are those that pose a 
risk to national security because they can be easily 
disseminated or transmitted from person to person, result in 
high mortality rates, and have the potential for major public 
health impact. Five of the six CDC Category A bioterrorism 
agents are zoonotic. Recently, the American Veterinary Medical 
Association and American Medical Association have created a 
"One Health" Task Force, which is identifying ways that human 
and veterinary health professionals can work together to 
effectively address threats to human, animal, and ecosystem 
health. The report of this Task Force is expected in the spring 
of 2008. There are approximately 85,000 veterinarians in the 
US. When compared to 2 million nurses, and 800,000 physicians, 
we are a small but important and effective profession. At 
graduation veterinarians swear they will use their scientific 
knowledge and skills for the benefit of society through the 
protection of animal health, the relief of animal suffering, 
the conservation of livestock resources, the promotion of 
public health and the advancement of medical knowledge.
    The public is most familiar with veterinarians working as 
private clinical practitioners, keeping companion animals 
healthy. Largely unrecognized are the contributions of 
approximately 2,800 veterinarians working in formal public 
health positions across federal, state, and local levels of 
government and academia, with their primary responsibility to 
promote and protect public health.
    At the Federal level, veterinarians as epidemiologists, 
researchers, program managers, laboratory scientists, risk 
assessment analysts, and higher level administrative and 
management positions, carry out important public health 
missions across several Departments of the Executive Branch. 
They provide leadership, oversight, and manpower for human and 
animal health emerging infectious and environmental disease and 
injury prevention and control programs, food safety and 
security, bio- and chemical terrorism preparedness, 
environmental health programs, emergency preparedness and 
response, biomedical research, laboratory animal medicine, and 
more.
    At the Centers for Disease Control and Prevention in the 
Department of Health and Human Services, approximately 3 to 5 
veterinarians serve as laboratory animal veterinarians who are 
critical to the conduct of high quality biomedical and public 
health research. However, there are approximately 85 
veterinarians (comprising approximately 1% of the CDC 
workforce) who are working on staff and in leadership 
positions, as epidemiologists in CDC's infectious disease and 
environmental health programs and centers. They lead teams or 
work as team members in the conduct of infectious and zoonotic 
disease, insect or vector borne disease, foodborne disease, and 
environmental disease outbreak investigations, locally in 
collaboration with state health officials, regionally, 
nationally and internationally. Veterinarians conduct disease 
surveillance for diseases and conditions that span the spectrum 
of public health threats, and they design, implement, and 
evaluate disease prevention and control programs. They are 
leaders and core team members in programs that prevent and 
control emerging infectious diseases including HIV/AIDS, 
malaria, vaccine preventable diseases, protect environments and 
ecosystems, prevent and control chronic diseases and injuries, 
prepare for, detect, and or respond to bio- and agro- terrorism 
attacks, advance medical science through research. Since 1950, 
over 250 veterinarians have graduated from CDC's Epidemic 
Intelligence Service. Veterinarians also participate in CDC's 
Emerging Infectious Diseases Laboratory Fellowship Program.
    During the SARS outbreak, monkey pox outbreak, and highly 
pathogenic H5N1 avian influenza outbreaks in 2003, 
veterinarians at CDC were critical members of CDC's 
international response teams, working as a team with physician 
and laboratory scientist colleagues, contributing their special 
training and perspective to achieving the mission.
    In the United States, there are an estimated 76 million 
cases of foodborne disease annually, with 325,000 
hospitalizations and 5,000 deaths. Dr. Ron DeHaven will be 
addressing the role of over a thousand veterinarians who are 
looking after our food safety in positions with the Animal Plan 
Health Inspection and Food Safety Inspection Services of the US 
Department of Agriculture. Veterinarians at CDC lead and or 
participate in multi-state foodborne outbreak investigations. 
In addition, veterinarians and colleagues at CDC and FDA, in 
collaboration with USDA and State health departments however, 
have developed and oversee FoodNet-an active sentinel 
surveillance system in the U.S., which helps to identify the 
magnitude and trends of foodborne infections in people, the 
source of foodborne infections so effective interventions can 
be undertaken, and serves as a platform for the conduct of more 
detailed investigations of risk factors for foodborne diseases 
and effective interventions to prevent them. Veterinarians at 
CDC, FDA, and USDA, in collaboration with selected State health 
departments, have established another key sentinel surveillance 
system called the National Antimicrobial Resistance Monitoring 
System (NARMS) for Enteric Bacteria. Veterinarians involved 
with NARMS monitor and report on antimicrobial resistance of 
six different species of bacteria that are obtained from human 
infections, to 17 different antimicrobials, in 27 sites, 
covering 158 million people in the U.S-or 56% of the U.S. 
population. Veterinarians at USDA and FDA coordinate and 
conduct testing for antimicrobial resistance of salmonella, 
Campylobacter, and E. coli isolates from infections in a number 
of food and companion animals. Veterinarians involved with 
NARMS are providing important information to inform medical and 
veterinary practitioners on the status of antibiotic resistance 
to aid in making judicious decisions on the use of antibiotics.
    Following the 9/11 attacks in New York City, the public 
heard about the wonderful care that veterinarians administered 
to working dogs that were members of the rescue operation. Less 
publicized were the efforts of several CDC veterinarians 
leading the conduct of human disease and injury surveillance 
programs in local hospitals during the emergency. Another 
example of the public health roles that veterinarians play 
should hit a little closer to home for some members of 
Congress. In the anthrax attacks of 2001 which targeted members 
of Congress right here on Capitol Hill, a veterinarian from EPA 
led environmental cleanup efforts on Capitol Hill. In addition, 
other veterinarians at CDC led the surveillance effort for new 
cases across affected cities and states during that event.
    Moving to the National Institutes of Health, there are 
approximately 85 veterinarians working to ensure the highest 
quality research, by overseeing the health and welfare care for 
research animals, and providing expertise in laboratory animal 
medicine and surgery, toxicology, and comparative pathology. In 
addition, there are veterinarians at NIH who work as scientists 
and program directors in disease research programs.
    At the Food and Drug Administration, approximately 115 
veterinarians in the Center for Veterinary Medicine and the 
Center for Food Safety and Nutrition work as epidemiologists 
and veterinary pathologists involved with policy, planning, 
budgeting, oversight of new animal drug reviews and approvals, 
surveillance for animal health /adverse drug reactions and 
antibiotic resistance. Veterinarians approve safe and effective 
products for animals, enforce applicable provisions of the 
Federal Food, Drug, and Cosmetic Act & other authorities, 
conduct animal drug review, oversee compliance-related actions 
and post-approval monitoring, oversee animal feed safety, and 
conduct surveillance for antibiotic resistance of food borne 
bacteria. Veterinarians at FDA develop screening tests for drug 
residues in meat and milk, and conduct research to support 
animal drug approvals. Dr. Steve Sundloff, a veterinarian at 
FDA recently was named Director of FDA's Center for Food Safety 
and Nutrition.
    As of 2004, there were approximately 20 veterinarians 
working in public and environmental health at the Environmental 
Protection Agency. At EPA, veterinarians conduct risk 
assessments of and evaluate Superfund sites, Eco-toxicological 
pathogens and or contaminants such as metals, antimicrobials, 
sludge borne, water and food borne pathogens. They conduct 
policy analysis and development, lead or participate in 
emergency preparedness and response and environmental 
contamination, conduct research on the adverse health effects 
of air, drinking water and terrestrial pollution, and address 
environmental issues related to intensive or concentrated 
animal feeding operations.
    In the Department of Homeland Security, approximately 10 
veterinarians work in leadership and staff positions in the 
Medical Affairs Office and FEMA, contributing toward national 
emergency preparedness and response goals and objectives.In the 
Department of Defense, approximately 500 veterinarians are 
protecting and promoting human health and welfare in the Army 
and Air Force, working as public health officers, on medical 
intelligence, deployment health support, decontamination of 
chemical/biological/ radiological casualties, and food safety 
as well as clinical veterinarians who care for working animals. 
At the State level, veterinarians serve as State 
Epidemiologists, State Public Health Veterinarians, State 
Veterinarians, and State Wildlife Veterinarians (and Deputies 
and Assistants to these positions). State Epidemiologists 
oversee disease prevention and control across acute infectious 
disease, chronic disease, environmental, occupational, and 
injury programs. State Public Health Veterinarians oversee and 
conduct surveillance for diseases that are transmitted from 
animals to people, such as rabies, West Nile Virus, and others, 
and prevention and control programs for zoonotic and food 
safety programs, and coordinate bio- and chemical bioterrorism 
preparedness. State Veterinarians oversee livestock and poultry 
health /disease prevention and control programs, health issues 
involving exotic and domesticated animals, animal care and 
welfare, and more. State Wildlife Veterinarians oversee 
wildlife health and conservation programs, which are gaining 
increasing importance with the recognition of wildlife health 
in the epidemiology and ecology of emerging zoonotic infectious 
diseases, which threaten human health and which appear to be 
increasing in occurrence.
    Increasingly, veterinarians at the state and local levels 
are playing critical roles in leading the development and 
implementation of plans for emergency preparedness and 
response. Veterinary colleges and their diagnostic 
laboratories, with faculty and staff (including veterinary 
diagnosticians and pathologists) are playing an important role 
in surveillance, laboratory testing including providing surge 
capacity for human laboratories, education and training, and 
research. Following Hurricane Katrina and in preparation for 
Hurricane Rita, at the request of Brazos County Health 
Department and the Texas State Health Department, Faculty at 
the College of Veterinary Medicine at Texas A&M partnered with 
medical colleagues to convert their large animal veterinary 
hospital into a facility to care for several hundred "special 
needs" patients from Houston and Galveston. By the evening 
Hurricane Rita arrived, the hospital was emptied of animals and 
sanitized, and ultimately 650 people including patients, 
families and caregivers were housed in the facility.
    At universities as well as in health agencies, 
veterinarians dedicated to the conduct of public health and 
biomedical research are needed to develop new public health 
interventions, to research the factors that influence the 
ability of viruses and bacteria to both animals and people, to 
study our immune systems which can make us more susceptible to 
diseases, to develop vaccines, to develop animal models of 
human diseases to study disease processes better and to 
identify new treatments for humans and animals.
    In the roles and contributions I have described, 
veterinarians either lead or work as part of multidisciplinary 
teams. In their training, veterinarians receive the same basic 
science preparation as physicians and other allied health 
professions; however, they study anatomy, physiology, and 
diseases of multiple species, making them comparative medicine 
specialists.
    Veterinarians are keen observers as their patients cannot 
offer information on symptoms they are feeling. Veterinarians 
receive extensive training in diseases of animals caused by 
parasites, bacteria and viruses and that are transmissible to 
people. Veterinarians are trained to consider the environment 
in which disease processes are taking place, and to expect the 
unexpected. In food animal medicine, they are taught 
population-based approaches to disease prevention, control, and 
health promotion, and in food systems that bring our food to 
the tables from our farms. In general, Veterinarians are taught 
to see the world as an ecosystem, in contrast to the education 
of the allied health professions which tends to target 
individuals alone. The training and perspective of 
veterinarians are unique and add value to the public health 
team. When veterinarians are not present to address a public 
health outcome, that lost perspective can present added 
challenges in arriving at effective public health solutions. 
And with an increasing human population, increasingly mobile 
human and animal populations, global climate change, 
globalization of our food supply, changing human behaviors with 
regard to animals that that increase human exposure to zoonotic 
pathogens, and changing microbes, the need for and benefit of 
veterinary knowledge, perspective, and expertise to contribute 
toward solving an increasing number of global health 
challenges, will only increase into the future. Many more 
public health veterinarians than the 2,800 currently serving 
(with many due to retire in the near future), are needed to 
take on the growing number of challenges to human, animal, and 
ecosystem health.
    The Institute of Medicine has defined public health as 
"what we, as a society, do collectively to assure the 
conditions in which people can be healthy". Veterinarians are 
an essential component of the US public health workforce. 
However, the profession and numbers of veterinarians working in 
public health are extremely small compared to the other health 
professions. Many more veterinarians are needed to keep up with 
the increasing human population accompanied by increasing 
numbers of companion and food animals, as well as to ensure 
sufficient numbers of veterinarians working in the public 
health areas I have described. With yearly graduating classes 
similar in size to those of 35 years ago, the profession cannot 
meet societal needs and fulfill its obligations to promote and 
protect public health.
    Our nation's Colleges of Veterinary Medicine, located in 26 
of our 50 States, are working with their universities and 
states to graduate the greatest number of new veterinarians 
possible with the facilities and infrastructure that exist, but 
many more veterinarians are needed to ensure our national food 
safety, preparedness, and security, to prevent, detect and 
control outbreaks of emerging infectious diseases, and to 
fulfill our responsibilities for national preparedness and 
response. Our national security and preparedness are at stake. 
Federal support, as described in the Veterinary Public Health 
Workforce Expansion Act (HR 1232) is essential to complement 
public and private support provided at state and local levels 
to meet the national need.
    Thank you for this opportunity to discuss the important 
roles that veterinarians play in protecting our public's 
health, in assuring our national security, our national 
veterinary public health workforce shortage, and efforts needed 
to address the national need. I would be pleased to respond to 
any questions.
                              ----------                              

    Mr. Pallone. Thank you. Dr. DeHaven.

  STATEMENT OF W. RON DEHAVEN, D.V.M., M.B.A., EXECUTIVE VICE 
  PRESIDENT, AMERICAN VETERINARY MEDICAL ASSOCIATION (AVMA), 
                         SCHAUMBURG, IL

    Dr. DeHaven. Mr. Chairman and members of the subcommittee, 
thank you for giving the American Veterinary Medical 
Association the opportunity to speak in support of the 
Veterinary Public Health Workforce Expansion Act. I am Dr. Ron 
DeHaven, the executive vice president of the AVMA. Previously, 
I served for nearly 3 decades with the U.S. Department of 
Agriculture's Animal and Plant Health Inspection Service most 
recently as its administrator. In that capacity, I was 
responsible for protection of U.S. agriculture and natural 
resources from pest and disease. The AVMA represents some 
76,000 veterinarians who are involved in every aspect of our 
veterinarian medical profession. Our members insure the well 
being of our companion animals. The protect human health 
through the control of zoonotic disease.
    They conduct research into animal and human health and they 
help preserve endangered species. Many of our AVMA members are 
also working to insure the health of our nation's livestock, 
and in doing so ultimately enjoy the safety of our food supply. 
These veterinarians have their work cut out for them. According 
to the CDC food borne diseases such as salmonella and E. coli 
are responsible for an estimated 76 million human illnesses, 
over 300,000 hospitalizations, and 5,000 deaths each year just 
in the United States. Food safety and the risk of illness from 
eating contaminated food remain on the collective conscience of 
our nation's public, and we just saw on January 12 the recall 
of nearly 200,000 pounds of ground beef over concern about E. 
coli contamination.
    As our nation continues to rely on protein-based diets the 
number of food animals that will be needed to meet that demand 
will grown proportionate with our population. The U.S. Census 
Bureau projects that the United States population will reach 
335 million by the year 2020 and in fact 413 million or 419 
million by the year 2050. This population growth will put 
increased demands on our food supply system as well as on those 
who are responsible for its safety and quality. Veterinarians 
have and will continue to play a critical role in that regard. 
Animals and humans are inextricably linked when it comes to 
disease. Veterinarians have been working on diseases of public 
health significance such as tuberculosis and brucellosis for 
over 100 years.
    SARS, monkeypox, West Nile Virus, Lyme disease, highly 
pathogenic avian influenza, bovine spongiform encephalopathy or 
BSE are just a few of the more recent examples of animal 
diseases that have had tremendous implications for public 
health. Veterinarians have played a pivotal role in the 
diagnosis, treatment, control, and surveillance for each one of 
those diseases. This connection between animals and humans is 
truly an issue of one health, that is, as goes the health of 
our nation's animals so goes the health of our nation's people. 
As guardians of our nation's food supply veterinarians will be 
the first medical professionals to diagnose and contain 
diseases in animals that may spread to humans. Unfortunately, 
the number of veterinarians available to serve society in these 
critically important roles does not meet that demand.
    A recent study conducted at Kansas State University 
projects this shortage to worsen by 4 to 5 percent each year 
into the foreseeable future. Reports indicate that 50 percent 
of the U.S. Public Health Service veterinary medical officers 
are now eligible to retire. The U.S. Department of Agriculture, 
which is already underserved by veterinarians is projecting 
huge deficits in the future in that same regard. A survey of 
the AVMA membership shows that the mean age of food supply 
veterinarians is approximately 50 years of age and so many of 
them are nearing retirement. At the heart of the issue is the 
fact that our country's veterinary medical colleges lack the 
capacity to produce more food supply and public health 
veterinarians. Our nation's 28 accredited veterinary colleges 
are currently at or above capacity graduating approximately 
2,500 veterinarians each year.
    According to a recent report by the Bureau of Labor 
Statistics veterinary medicine ranked 9th among the 30 fastest 
growing occupations for the years 2006 to 2016. It is estimated 
that jobs for veterinarians will increase by 35 percent in the 
next several years, and it is our collective responsibility to 
insure that there are veterinarians to fill those positions. 
Fiscal concerns are also playing an important role in this 
shortage. Only 26 states currently cover the lion's share of 
the cost of producing veterinarians who protect the entire 
nation's food supply and public health. There has also been a 
dearth of Federal funding for veterinary colleges. According to 
a 2005 report by the National Research Council the last major 
Federal funding program to support construction of facilities 
for colleges of veterinary medicine ended more than 40 years 
ago.
    Out country's ability to protect its food supply and its 
capacity for zoonotic and food animal disease research is 
insufficient and these realities could have devastating long-
term consequences. Food animal production adds approximately 
$124 billion annually to the U.S. economy. A single highly 
infectious disease that is not rapidly diagnosed could destroy 
much of our nation's livestock resulting in shortages, not just 
dietary protein, but also result in huge economic losses. In 
addition, the CDC estimates that 80 percent of the bio-terror 
agents are infectious diseases that spread from animals to 
humans. Failure to quickly diagnose these diseases in animals 
before they are spread to humans could have huge consequences 
and catastrophic loss of human life.
    There are ways of addressing this problem, and we need look 
no further than the Veterinary Public Health Workforce 
Expansion Act. This act would create a competitive grants 
program designed to produce more veterinarians working in 
public health practice and enhance our capacity for research on 
diseases that threaten both public health and food safety. Mr. 
Chairman, the AVMA fully supports the Veterinary Public Health 
Workforce Expansion Act. We thank you for holding this hearing 
and thank you for providing the AVMA the opportunity to address 
the subcommittee.
    [The prepared statement of Dr. DeHaven follows:]

                      Testimony of W. Ron DeHaven

    Mr. Chairman and members of the Subcommittee, thank you for 
giving the American Veterinary Medical Association the 
opportunity to speak in support of the Veterinary Public Health 
Workforce Expansion Act.
    I am Dr. Ron DeHaven, executive vice president of the AVMA. 
Prior to joining the AVMA, I served nearly three decades with 
the United States Department of Agriculture's Animal and Plant 
Health Inspection Service, most recently as APHIS 
administrator. In that capacity, I was responsible for the 
protection of U.S. agriculture and natural resources from 
exotic pests and diseases, administering the Animal Welfare 
Act, and carrying out wildlife damage management activities.
    The American Veterinary Medical Association represents more 
than 76,000 American veterinarians engaged in every aspect of 
veterinary medical science. Among other things, we ensure the 
well-being of our nation's companion animals, we protect human 
health through the control of zoonotic disease, we conduct 
research into animal and human health, and we help preserve 
endangered species. Many of us are working to ensure the health 
of our nation's livestock, and ultimately our food supply.
    As you can see, veterinarians do much more than take care 
of our beloved family pets. They also play a vital role in 
preserving our country's public health by protecting humans 
from diseases spread by animals and assuring the safety of our 
food, from poultry to pork and beef.
    These veterinarians have their work cut out for them. 
According to the Centers for Disease Control and Prevention, 
foodborne diseases, such as Salmonella and E. coli, are 
responsible for an estimated 76 million human illnesses, 
300,000 hospitalizations and 5,000 deaths each year in the 
United States. Food safety and the risk of illness from eating 
contaminated food items remain on the nation's collective 
conscience, as we just saw January 12 with the recall of nearly 
200,000 pounds of ground beef because of concerns of E. coli 
contamination.
    As our nation continues to rely on protein-based diets, the 
number of food animals needed to meet that need will rise 
proportionately with population growth. The U.S. Census Bureau 
projects that the United States population will grow to more 
than 335 million by 2020 and to more than 419 million by 2050. 
This population growth will put increased demands on our food 
supply system and those who are responsible for its safety and 
quality. Veterinarians will play a critical role in that 
regard.
    Animals and humans are inextricably linked when it comes to 
disease. Veterinarians have been working on diseases of pubic 
health significance, such as tuberculosis and brucellosis, for 
more than 100 years. Severe acute respiratory syndrome (SARS), 
monkeypox, West Nile Virus, Lyme disease, avian influenza and 
bovine spongiform encephalopathy (BSE) are more recent examples 
of zoonotic diseases that have had significant public health 
implications. Veterinarians have played a pivotal role in the 
identification, diagnosis, treatment, control and surveillance 
of each one of these diseases.This connection between animals 
and humans is truly an issue of "one health." That is, as goes 
the health of our nation's animals, so goes the health of its 
people.
    The veterinarians working in food safety and public health 
can be found in both the public and private sectors. At the 
Centers for Disease Control, veterinarians work in areas such 
as bioterrorism, environmental health, viral and bacterial 
diseases, and food safety. At the Food and Drug Administration, 
veterinarians working in the Center for Veterinary Medicine 
help regulate the manufacture and distribution of food 
additives and drugs that are given to animals, including those 
animals from which human foods are derived. At the United 
States Department of Agriculture, veterinarians work in food 
safety and animal health. In the private sector, food supply 
veterinarians are involved in keeping food animals healthy and 
their environments free of contaminants.
    Simply put, all of these veterinarians serve as guardians 
of our nation's food supply, and they will be the first medical 
professionals to diagnose and contain diseases in animals that 
may spread to humans.
    Unfortunately, the number of veterinarians available to 
serve society in these key roles does not meet demand. A recent 
study conducted at Kansas State University projects this 
shortage to worsen by 4 percent to 5 percent annually for the 
next several years. This shortage is being felt across the 
board. Reports indicate that 50 percent of U.S. Public Health 
Service veterinary medical officers are now eligible for 
retirement. The USDA, which is already underserved, is 
predicting a shortfall of several hundred veterinarians. A 
survey of the AVMA membership shows that the mean age of food 
supply veterinarians is around 50 and nearing retirement, 
placing an even greater burden on the profession and our 
society.
    Added to the mix is the fact that the country's veterinary 
colleges lack the capacity to produce more food supply and 
public health veterinarians. Our nation's 28 accredited 
veterinary colleges are currently at or above capacity, 
graduating about 2,600 veterinarians each year. According to a 
recent report by the Bureau of Labor Statistics, veterinary 
medicine ranked 9th in the list of the 30 fastest-growing 
occupations for 2006 through 2016. It is estimated that jobs 
for veterinarians will increase by 35 percent in the next 
several years. And it is our joint responsibility to fill them.
    While some of that growth will be met with the addition of 
new graduates into the workforce, there are national concerns 
that many jobs in food supply and public health will go 
unfilled. There are about 8,850 U.S. veterinarians working in 
the food animal field. Around the turn of the 20th Century, 
virtually every veterinarian was a food animal veterinarian. 
Today, only about 17 percent of veterinarians work in food 
supply and more than 70 percent of veterinarians work with 
companion animals. This trend is likely to continue as 
veterinary school graduates enter the workforce.
    Apart from the workforce issues I have highlighted, fiscal 
concerns also are playing a role in this shortage. Only 27 
states currently share the cost of producing the veterinarians 
who protect the entire nation's food supply and public health. 
There has also been a dearth of federal funding for veterinary 
colleges. According to a 2005 report by the National Research 
Council of The National Academies, titled, "Critical Needs for 
Research in Veterinary Medicine," the last major federal 
program to support construction of facilities for colleges of 
veterinary medicine ended more than 40 years ago.
    Our country's ability to protect its food supply, and its 
capacity for zoonotic and food animal disease research is 
insufficient, and these realities could have devastating 
consequences.
    Food animal production generates about $124 billion 
annually to the U.S. economy. A single, highly infectious 
disease that is not rapidly diagnosed could destroy much of our 
livestock, resulting in shortages of dietary proteins and 
significant economic losses. In addition, the CDC estimates 
that 80 percent of potential bioterror agents are infectious 
diseases that spread from animals to humans. Failure to 
diagnose these diseases in animals before their spread to 
humans could result in a catastrophic loss of human life.
    Additionally, as food animal operations become more 
centralized, there is even greater risk of a single disease 
spreading throughout an entire herd that could easily number in 
the tens of thousands, prompting an outbreak of enormous 
proportion that would require veterinarians' talent, experience 
and expertise to contain and eliminate.
    There are ways of addressing this problem, however, and we 
need look no further the promise behind the Veterinary Public 
Health Workforce Expansion Act. This Act would create a 
competitive grants program designed to produce more 
veterinarians working in public health practice and enhance our 
capacity for research on diseases that threaten public health 
and food safety.
    Mr. Chairman, the AVMA fully supports the Veterinary Public 
Health Workforce Expansion Act.
    The shortage of veterinarians working in food supply and 
public health positions poses a threat to our country's 
security. Though the federal budget is strained, national 
investment in our veterinary colleges and our capacity in 
zoonotic and food animal disease research is necessary. The 
potential costs of failing to make this investment far exceed 
the cost of the investment itself.
                              ----------                              

    Mr. Pallone. Thank you. Dean Kelly.

   STATEMENT OF ALAN KELLY, B.V.SC., M.R.C.V.S., PH.D., DEAN 
  EMERITUS, UNIVERSITY OF PENNSYLVANIA, SCHOOL OF VETERINARY 
        MEDICINE, NEW BOLTON CENTER, KENNETT SQUARE, PA

    Mr. Kelly. Chairman Pallone and members of the Health 
Subcommittee, thank you for giving me the opportunity to 
testify before you today. I would like to take the opportunity 
of thanking Congressman Baldwin and Congressman Pickering for 
the support of the bill. My name is Dr. Alan Kelly. For 12 
years I was dean of the School of Veterinary Medicine at the 
University of Pennsylvania, and I have been on the faculty at 
Penn for 45 years. Let me start by saying that the veterinary 
profession provides an extraordinary and important link between 
agriculture and human medicine. Our testimony presents the case 
for increasing enrollment in the nation's 28 veterinary schools 
and is largely driven by public concern over the safety of the 
food supply and the security from diseases that are 
communicable from animals to humans such as avian influenza and 
SARS.
    In my written testimony, I describe the background of the 
Workforce Expansion Act, starting with the Veterinary Medical 
Education Act of 1966 that recognized the need to upgrade aging 
facilities to increase enrollment in the nation's veterinary 
schools. As a result, enrollment increased by approximately 
1,000 students per year between 1963 and 1983. Since that time 
enrollment in U.S. veterinary schools has remained more or less 
flat at about 2,400 students per year. As a result, veterinary 
schools are very difficult to get into. For example, at Penn 
this year we received 1,500 applicants for 112 places, and now 
1,200 American students are obtaining veterinary education 
overseas and this number is growing.
    This number represents more than 10 percent of the total 
enrollment in veterinary schools in this country. Veterinary 
public health and safety begins on the farm. For the past 30 
years American livestock and poultry production has undergone 
dramatic changes with consolidation and integration of the 
poultry and swine industries into large production units that 
use less veterinary services per animal than in more 
traditional farming. The dairy industry is undergoing the same 
trend. Small dairy farms are going out of business and the 
number of herds of over 1,000 milking cows is increasing 
rapidly. With the increased size of herds the amount of 
veterinary services is declining, and it is increasingly 
difficult for farm animal veterinarians to survive in the rural 
setting.
    As a consequence of this shift, large areas of the United 
States are now without veterinary coverage. The decrease 
threatens to undermine the nation's capacity to protect animal 
and human health and to respond to potential emergencies should 
they arise. As my colleagues have described veterinarians 
employed in multiple ways in the Federal and state governments 
to insure the safety of the food supply from farm to fork as 
well as the safety of imported foods and live animals. 
Veterinary schools are not able to meet present needs, and let 
me give you some examples. The average age of USDA Food Safety 
Inspection Service veterinarians is 54 and approximately 500 
USDA veterinarians are expected to leave in the next 5 years.
    Even with replacement of retirees the veterinary services 
division of the Animal and Plant Health Inspection Service 
project a shortfall of 298 veterinary offices by 2011. The 
Center of Disease Control and Prevention estimates the needs of 
200 specially trained veterinarians in the next decade. The 
U.S. Public Health Service has more than 50 unfilled positions 
and 50 percent of the present U.S. Public Health Service 
veterinarians are now eligible for retirement. To maintain its 
current defective strength the U.S. Army Veterinary Corps which 
has responsibility for the safety of food supplies to the 
military requires an additional 45 new veterinarians each year. 
There is an acute shortage of lab animal veterinarians which 
threatens research activity not only in the pharmaceutical 
industry but also in health-related research in the nation's 
universe of these research institutions.
    Veterinary pathologists are critically important to the 
U.S. drug and chemical industries and to diagnostic labs. In 
the U.S.A. today there are 1,300 board-certified veterinary 
pathologists. Currently there are 90 open positions and in the 
next decade this number is projected to increase to 300 to 500 
and fill positions because of increased demand. To meet these 
needs projections are that the U.S. veterinary schools must 
graduate over 420 more veterinary students per year. In 
addition, because of the sophistication of clinical and 
research training now required slots for 219 more graduate 
students are needed. The schools need additional faculty and 
funding for capital improvements to be able to fulfill these 
needs. Draining and basic research must also be expanded 
especially in immunology and infectious disease research and 
food safety.
    Infectious diseases research is of special importance for 
veterinary schools since most of the new and emerging 
infectious diseases that have appeared in the last 15 years and 
affect humans have come from reservoirs of infection in 
wildlife. As people intrude further and further into wildlife 
areas and as unregulated live animal markets and the sale of 
bush-meat continues, more and more of these diseases will 
emerge to threaten the global community. It is here that a 
partnership must be forged between human and veterinary public 
health as one health to control the spread of these infections 
and to sustain the safety of Americans and their food supply. 
Thank you for your attention.
    [The prepared statement of Mr. Kelly follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Pallone. Thank you, Dean Kelly. Dr. Allen.

 STATEMENT OF SHEILA W. ALLEN, D.V.M., M.S., DEAN, COLLEGE OF 
     VETERINARY MEDICINE, UNIVERSITY OF GEORGIA, ATHENS, GA

    Dr. Allen. Good morning, Chairman Pallone, Congressman 
Deal, and members of the subcommittee. It has been my privilege 
to be involved in educating future veterinarians at the 
University of Georgia for 27 years. My testimony will focus on 
what veterinary colleges are doing to address the manpower 
shortage and why our Federal government should assume some of 
the responsibility for addressing this critical shortage. The 
demand for enrollment in U.S. colleges remains high and the 
interest among students in public service and food animal 
medicine is strong. Young people pay attention to the news and 
they recognize the threat to human health that is posed by the 
prevalence of animal pathogens and would like to help meet this 
challenge. We are admitting students with interest in public 
health, nurturing that interest while they are in school and 
providing incentives such as scholarships and loan forgiveness 
programs.
    As a result of these and other incentives veterinary 
graduates are entering careers in which the shortage exists. At 
the University of Georgia, more students entered public health, 
food animal practice, and biomedical research careers in last 
year's graduating class than ever before. Although we are 
pleased with this progress the harsh reality is that it will 
not come close to filling the need. We must increase enrollment 
in our veterinary colleges. Feasibility studies conclude that 
it is cost prohibitive to establish new colleges of veterinary 
medicine. As a result, many of the states that do not have a 
veterinary college partner with an existing college in another 
state to provide a veterinary education for their citizens. 
Examples include Nebraska's partnership with Iowa State 
University, and the relationship between South Carolina, West 
Virginia, and Delaware with the University of Georgia.
    Each college's annual cost of educating a veterinary 
student ranges between $55,000 and $65,000 per year per 
student. With the average yearly tuition paid by the in state 
student being 15,000 and the out of state student 29,000 the 
balance must be paid by the state supporting these institutions 
at an average state appropriation of over $20 million per year. 
The average annual cost assumed by each student to attend 
veterinary school including tuition, books, and living expenses 
is $37,000 for in-state residents and $53,000 for out-of-state 
residents. It is no wonder that the average educational 
indebtedness after completing the 4-year program is over 
$100,000. We cannot rely exclusively on tuition increases to 
pay the escalating costs of operating a veterinary college much 
less expanding them.
    To do so would exacerbate the student's debt burden and 
further diminish the number of graduates who can afford to 
enter underserved careers in public service, biomedical 
research, and rural practice. State governments continue to pay 
the recurring expenses involved in running a veterinary 
college, all of which are escalating rapidly. What we need help 
with is construction to expand our colleges. We need larger 
classrooms, larger instructional laboratories, and expansion of 
all the support areas that increased enrollment requires. Most 
U.S. colleges have major capital expansion projects proposed to 
their state legislatures. Even if all were fully funded, we 
cannot increase our enrollments sufficiently to meet the needs 
of the future. Our Federal government has recognized its 
responsibility to protect the health of the nation by 
establishing the National Animal Health Laboratory Network, 
diagnostic laboratories that are dedicated to the disease 
surveillance of animal populations.
    The proposed National Bio and Agroterrorism Defense 
Facility or NBAF is another example of our Federal government 
assuming the responsibility of protecting our nation's animal 
resources. Unless we work together to expand the capacity for 
training more veterinarians there simply won't be enough 
qualified veterinary professionals to work in these federally 
funded facilities. What we are proposing is a competitive 
grants program that will administer awards to institutions that 
are devoted to graduating more veterinarians who will enter 
fields of veterinary medicine that are of vital importance to 
the health of our nation. The institution's awarded funds will 
be expected to document that the enrollment increase resulted 
in more graduates entering fields of public health importance. 
We expect to be held accountable for demonstrating this desired 
outcome.
    I hope we have explained the vital role that veterinarians 
play in keeping the interface between people and animals a 
healthy one. Whether that interface is the milk we drink, the 
eggs and meat that we eat or the wildlife in our forests 
veterinarians play an important role in insuring that animal 
disease are monitored for, detected earlier, and hopefully 
prevented so they don't threaten the well being of people. We 
believe that increasing the number of veterinarians devoted to 
this work is vitally important and that the U.S. government 
should contribute towards this national priority. I thank you 
for your time and attention, and I also thank Congresswoman 
Baldwin, Congressman Pickering, and Senator Allard for their 
leadership in this effort.
    [The prepared statement of Dr. Allen follows:]

                      Testimony of Sheila W. Allen

    Good morning Congressman Pallone, Ranking Member Deal, and 
members of the subcommittee. I am Dr. Sheila Allen, dean of the 
College of Veterinary Medicine of the University of Georgia. It 
has been my privilege to be involved in training future 
veterinarians at the University of Georgia for 27 years. I 
thank you and the subcommittee for the opportunity to speak to 
you today about the Veterinary Public Health Workforce 
Expansion Act. This legislation is vital not only to the future 
of the veterinary profession, but to the health of our nation. 
My colleagues Drs. DeHaven and Pappaioanou have outlined the 
many critical roles that veterinarians play in protecting 
people from diseases transmissible from animals to man, whether 
that transmission occurs by direct contact (such as highly 
pathogenic avian influenza), from ingestion of contaminated 
food or water (such as E. coli 0157 or salmonella), or through 
insect borne means (such as West Nile virus). They and Dr. 
Kelly also have described the workforce shortage that already 
exists in the federal agencies devoted to this important work. 
My testimony will focus on why the federal government should 
assume some of the responsibility for expanding the capacity of 
US Colleges of Veterinary Medicine to help address this 
critical shortage.
    There are currently 28 Colleges of Veterinary Medicine in 
the United States, supported by 26 states. The states that do 
not have a College of Veterinary Medicine have contracts with 
existing colleges to provide a veterinary education for their 
citizens. Many of these states have conducted feasibility 
studies to determine what it would take to establish a College 
of Veterinary Medicine, and all have concluded that it is cost 
prohibitive. It is much more cost effective to expand existing 
colleges to meet the demand for enrollment and the market for 
veterinary graduates than to build new schools. Many of the 
states that do not have a College of Veterinary Medicine, yet 
have a high demand for enrollment among its citizens, have 
chosen to partner with an existing College in another state to 
provide funds to allow those Colleges to expand. Examples of 
such partnerships include Nebraska's partnership with Iowa 
State University, and the relationship between South Carolina 
and the University of Georgia.
    The demand for enrollment in Colleges of Veterinary 
Medicine in the US remains high. The interest among our 
students in entering careers in public health, biomedical 
research, and food animal medicine is strong. Young people pay 
attention to the news and recognize the threat to human health 
that is posed by the prevalence of animal pathogens, and would 
like to be part of the veterinary workforce that will meet this 
challenge. Colleges of Veterinary Medicine are trying to 
address the shortage by admitting students with these 
interests, nurturing that interest while in veterinary school, 
and providing incentives such as scholarships and loan 
forgiveness programs. Students who pursue a masters of public 
health or doctoral research degree programs are awarded 
stipends to minimize the added cost of obtaining such training. 
As a result of these and other incentives, veterinary graduates 
are entering these careers in which a shortage exists. At the 
University of Georgia, more students entered public health, 
food animal practice, and biomedical research careers from last 
year's graduating class than ever before. Although we are 
pleased with this progress, the harsh reality is that it will 
not come close to filling the need. In order to preserve the 
health of our nation and its animal resources, we must have an 
overall expansion of enrollment in our veterinary colleges.
    Some of the most severe shortages in veterinary workforce 
are in those fields devoted to protecting public health: food 
safety and food animal practice, public health officials, and 
biomedical research. The federal government has recognized its 
responsibility to protect the health of the nation by 
establishing the National Animal Health Laboratory Network, 
which is a network of diagnostic laboratories dedicated to the 
disease surveillance of animal populations. The proposed 
National Bio and Agroterrorism Defense Facility (NBAF) is 
another example of our federal government assuming the 
responsibility of protecting our nation's animal resources. 
Ladies and gentlemen, unless we work together to expand the 
capacity for training more veterinarians, there won't be enough 
qualified veterinary professionals to work in these federally 
funded facilities.
    The states that have Colleges of Veterinary Medicine have 
invested heavily to educate veterinarians who will serve 
society, and will continue to do so. The average annual 
operating budget for a veterinary college is $56 million. 
Colleges of Veterinary Medicine estimate the annual cost of 
educating a veterinary student to be $55,000 to $65,000 per 
year per student. With the average yearly tuition paid by the 
in-state student being $15,000, and the out of state tuition 
average being $29,000, the balance is paid by the states 
supporting these institutions, at an average state 
appropriation of $20 million per year.
    The average annual cost assumed by each student to attend 
veterinary school, including tuition, books, and living 
expenses is $37,000 for in-state residents, and $53,000 for out 
of state residents. It is no wonder that the average 
educational indebtedness after completing the four-year program 
is over $100,000. We cannot rely exclusively on tuition 
increases to pay the escalating costs of operating a veterinary 
college, much less expanding them. To do so would exacerbate 
the students' debt burden, further diminishing the number of 
graduates who can afford to enter underserved careers in public 
service, biomedical research, and rural practice for which the 
financial compensation is less than in suburban private 
practice and specialized veterinary medicine.
    State governments will continue to assume the ongoing costs 
of paying faculty and staff, facility maintenance and 
utilities, and all the other recurring expenses involved in 
running a veterinary college, all of which are escalating 
rapidly. We also will continue to award scholarships and 
administer loan forgiveness programs for students who pursue 
careers of great need in our profession. We will continue to 
place emphasis on admitting students who demonstrate a desire 
to pursue underserved career paths. What we need help with is 
capital construction to expand our colleges. We need larger 
classrooms, larger instructional laboratories, and an expansion 
of all the student support areas an increased enrollment 
requires (locker rooms, computer labs etc.). Most US Colleges 
have major capital expansion projects proposed to their state 
legislatures. Even if all were fully funded, we cannot expand 
our enrollments sufficiently to meet the needs of the future.
    House Resolution 1232 seeks federal assistance to expand 
the infrastructure in existing Colleges of Veterinary Medicine 
so that more students can be trained to enter careers that are 
vital to our nation's health: animal and human. What we are 
proposing is a competitive grants program. The grants will be 
awarded to institutions that are devoted to graduating 
veterinarians who will enter fields of veterinary medicine that 
are of vital importance to the health of our animal resources, 
our environment, and ultimately our citizens. The institutions 
awarded funds will be expected to document that the enrollment 
expansion resulted in more graduates entering fields of public 
health importance. We expect to be held accountable for 
demonstrating this desired outcome.
    I hope we have explained the vital role that veterinarians 
play in keeping the interface between people and animals a 
healthy one. Whether that interface is the milk we drink, the 
eggs and meat we eat, or the birds in our backyard bird feeder, 
veterinarians play an important role in ensuring that animal 
diseases are monitored for, detected, and hopefully prevented 
so they don't threaten the well-being of people. We believe 
that increasing the number of veterinarians devoted to this 
work is vitally important, and that the US government should 
contribute toward this national priority.
    Thank you for your time and attention. I'll be happy to 
respond to any questions you may have.
                              ----------                              

    Mr. Pallone. Thank you, Dr. Allen, and thank all of you. We 
will have questions for the panel now, and I will start out 
with myself and I am going to start out with Dean Kelly. When 
you took me for the tour of the New Bolton Center it was 
painfully obvious that there were many infrastructure needs 
there. I had no idea how many buildings, you know, how much in 
terms of resources it takes to just maintain the farm campus or 
whatever it is, and of course I am looking at U Penn, which I 
assume is probably, I could be wrong, but I assume is probably 
one of the wealthiest of the veterinary schools, and yet there 
were so many needs. But of course the opposite side of that is 
we have all kinds of needs here, you know, whether it is 
doctors, veterinarians, nurses, whatever, so I wanted to ask a 
couple of--a few questions that sort of maybe are in the 
negative, if you will.
    You talked about how there is an increasing number of 
overseas schools and veterinarians being educated there. One 
could sort of assume that so what, OK, let them be educated 
overseas. It doesn't cost us much. Let the states continue to 
pay the cost or maybe we can get wealthy benefactors to 
contribute, and then there is the other issue about why do 
veterinarians have to perform these public health functions. 
Maybe they can be performed by people that aren't educated to 
that degree. Why do we need the Federal government to step in 
and why do we need to have more veterinarians for these public 
health purposes.
    So I am asking that in the negative. If you want to respond 
to all that because these are some of the questions that come 
up.
    Mr. Kelly. So far as the students going overseas, one of 
the characteristics of veterinary education is that it is by 
states and it revolves around the type of agriculture there is 
in a state so the type--Pennsylvania, for example, we have a 
large dairy industry so a lot of our large animal education is 
focused on the dairy industry. In Texas it is the beef 
industry. If you go overseas, you are looking at a totally 
different type of agriculture and actually a totally different 
type of education that they will get which is not necessarily 
relevant to this country, and they certainly are not going to 
get the type of education in public health that we would 
recommend.
    Now so far as why veterinarians are concerned, let me give 
you one example, and it focuses on Britain in relation to the 
Foot and Mouth disease outbreak that occurred there a few years 
ago where epidemiologists who were not veterinarians designed 
the plan for eradicating the disease. Because they didn't 
understand the disease and the type of transmission that that 
particular strain of Foot and Mouth disease, it is probable 
that at least 5 million animals that did not need to be 
destroyed were destroyed, and that is where you get the figure 
of $10 million. As a veterinarian, you have to understand the 
interplay between disease and the animal population and how it 
should be best handled, how you would best limit the spread of 
a disease.
    These are the reasons why knowledge of animal health, 
animal physiology actually, probably the most important thing 
is understanding animal physiology. That is the training that a 
veterinarian has and other people don't have. It is critically 
important and that is understanding the issues that we are 
confronted with.
    Mr. Pallone. I know Dr. Allen mentioned the state support 
but what about those other 2 aspects? In other words, why not 
just let the states continue to support this, why does the 
Federal government have to be involved? And what about just 
getting the big private benefactors. You know, there are all 
these people out there that love animals. They can just give us 
millions of dollars. I don't really believe this is happening 
but I want a response.
    Mr. Kelly. Well, so far as private benefactors are 
concerned, they are interested, and you saw New Bolton Center 
and we have a large equine clinic, a lot of that is supported 
by private benefactors who are interested in the horse. They 
have money and they want to provide the best quality care for 
horses. They are not interested in public health, and you will 
not be successful in raising funds from the private sector for 
public health. It just won't happen, I can tell you. So far as 
the states are concerned Pennsylvania, Congressman Pitts has 
been very generous to us when he was in the state legislature 
in supporting us to the extent that they are able. We are a 
private institution. We don't get capital funds from the state.
    And I think in large measure the states have done as much 
as they possibly can but these are very large numbers and the 
state budgets are not able to go further.
    Mr. Pallone. And I assume from what Dr. Allen said that 
creating new veterinary schools would even be more expensive 
than using this money for infrastructure needs to create more 
public health purposes at the existing ones, I am a little 
prejudiced because being from New Jersey, I have always thought 
it would be great for Rutgers to have a veterinary school, and 
I would still like to see that some day but I just wanted your 
response. I assume it is just a lot more expensive to build new 
schools as opposed to create slots at existing ones.
    Dr. Allen. That is correct. A feasibility study was done by 
the State of Connecticut for the very reason that you 
suggested. They wanted to have a veterinary school there and 
they quickly realized that the capital construction costs and 
the annual operating budget were not something that the state 
was prepared to embark upon, and so they are looking for other 
schools to expand their enrollment and accept their students. 
The State of South Carolina is doing the same thing. They are 
growing rapidly and have asked the University of Georgia to 
expand the enrollment of South Carolina citizens in our college 
because they recognize that it is cost prohibitive for them to 
develop their own veterinary college.
    Mr. Pallone. OK. Thank you. Mr. Deal.
    Mr. Deal. Thank you. This bill that we are considering is 
an amendment to the Public Health Safety Act and that has part 
to do with jurisdiction of this committee and part the focus of 
what the legislation directs the capital money that would be 
authorized to be used for, namely, aimed at public health 
service roles by veterinarians. One of the concerns that people 
have expressed is how does a college of veterinary medicine 
segment capital funds for the purpose of giving emphasis to the 
public health arena. And, Dr. Allen, I would ask you that 
question because you mentioned that your number of graduates 
last year at the University of Georgia vet school that were 
going into this area that this bill is designed to emphasize 
increased. How would you convince somebody in a competitive 
grant environment that you were doing that and what percent of 
those graduates last year went into this area?
    Dr. Allen. Well, a number of things have been done at the 
University of Georgia and other veterinary schools to increase 
the number of students or graduates who are entering these 
fields. For example, we started a food animal veterinarian 
incentive program, and what this does is identifies student in 
high school who have a demonstrated interest in food animal 
food safety questions and give them early admission to 
veterinary college as they are mentored through their 
undergraduate career. That is one example. The number of 
colleges that have developed combined DVM, MPH or Master's of 
Public Health degree programs has gone from 6 to 16 in recent 
years because the colleges recognize that it is important to 
encourage students to enter these careers.
    At Georgia we provide scholarships for those students to 
diminish the financial burden for them to enter these careers 
so----
    Mr. Deal. Does it give preference to this area of the 
public health sector or is it across the board?
    Dr. Allen. Yes, sir, it does. And what has resulted is we 
have more students going in these areas, and I think those 
institutions that are awarded this competitive grants program 
must be held accountable to show that the overall increase in 
the expansion of their facility will result in more students 
going in these careers.
    Mr. Deal. What percentage of your last year's graduates 
went in this area?
    Dr. Allen. We had over 10 percent last year go in public 
health, lab animal, these types careers, but we had more 
students go into large animal and mixed animal practice than 
ever before. So we are very encouraged by that.
    Mr. Deal. Pardon the intended pun but there is concern that 
we don't want this to all go to the dogs.
    Dr. Allen. Understood.
    Mr. Deal. The University of Georgia not included in that. 
That literally is one of the concerns obviously is to focus the 
training of veterinarians in the areas that we are concerned 
with, and in that regard, Dr. DeHaven, as you are aware there 
is a companion, if you would, provision in the Farm Bill, as I 
understand, that is in conference now that comes from a little 
different jurisdictional point of view. What is your opinion as 
to whether we need this with this emphasis from public health 
as a companion to or as an augmentation to what may come out of 
the Farm Bill? Would you comment on that, please?
    Dr. DeHaven. Yes, Congressman Deal, thank you for the 
question. I think it is one that needs to be clarified. While 
we are not responsible for it both the AVMA and the AVMC, the 
Association of Veterinary Medical Colleges, support the Farm 
Bill language, and we think that is because the Agriculture 
Committees recognize that indeed there is a shortage of food 
animal practitioners, those veterinarians in the field that 
provide the hands-on care to our production food animals. So 
while there is certainly a connection or an apparent overlap 
you can't separate food animal practice from food safety and 
public health. They are inextricably linked as we have already 
talked about. It would be most likely those food animal 
practitioners in the field that would be the first to see and 
diagnose a new or emerging disease or foreign animal disease in 
our nation's livestock, so the two are very closely linked.
    We want to make sure that the language in the Veterinary 
Public Health Workforce Expansion Act and the Farm Bill 
language would compliment each other as opposed to any conflict 
or duplication of effort so while we recognize again this 
inextricable linkage between production farm animal practice 
and public health veterinary medicine, we would be anxious to 
work with the committee to insure that there is not unnecessary 
duplication or conflict between the 2 pieces of legislation.
    Mr. Deal. Thank you, Mr. Chairman. I will yield back.
    Ms. Baldwin [presiding]. I will now recognize myself for 
questioning. Dr. Poppaioanou, we know now with the global 
economy there is a lot more movement of people traveling across 
the globe and public health threats don't adhere to national 
borders. I am wondering how the U.S. Public Health Veterinary 
Workforce compares to that of other nations and how we play a 
role in identifying and monitoring zoonotic diseases abroad. 
Does our veterinary shortage affect our capacity to assist 
other nations in conducting surveillance?
    Dr. Pappaioanou. Thank you very much for that question, 
Congresswoman Baldwin. I think the Centers for Disease Control 
and other agencies in the Public Health Service and the 
Department of Health and Human Services are a model really for 
other countries. Several other countries in Europe have 
actually formed like CDC agencies because of the very special 
role that CDC and its sister agencies play in the United 
States. And veterinarians, and they see the role that 
veterinarians play actually working side by side with 
physicians, with nurses, with statisticians as part of the 
public health team in conducting food borne and outbreak 
investigations, other zoonotic disease outbreaks, the 
surveillance that you have mentioned actually working in 
disease prevention and control, the CDC veterinarians actually 
have been a part of our nation's international response teams 
on the SARS, monkeypox, and Avian highly pathogenic H5N1 Avian 
Influenza outbreaks working as part of the WHO multi-national 
teams that were sent out to the field.
    Our veterinarians also have worked, for example, they led 
surveillance efforts at the Olympics in Greece. I don't know 
for certain but I wouldn't be surprised that they are right 
there working and planning, helping the Chinese, so they really 
do play a role. Other nations have looked to what occurs in the 
United States, the training that we get. Veterinarian 
participation in the EIS program at CDC, right now I think it 
is close to 250 veterinarians have graduated from that program, 
and so we really are showing the way of one health, if you 
will, of really linking human and animal health.
    Ms. Baldwin. Continuing on this vein, I know that in 
Congress we are aware that we ought to act in preventative ways 
but often times we don't act until the crisis is upon us so I 
am going to give you all a chance to maybe scare us a little 
bit into thinking about how important it is to take early 
steps. But focusing in on the pandemic flu, Avian flu, this 
subcommittee and in fact the full Energy and Commerce Committee 
has been told by experts who have appeared before us before 
that it is a matter not if but when we will see some sort of 
pandemic occur. And animal surveillance clearly will be 
critical to early identification of a more dangerous strain of 
H5N1. The earlier identified the strain the better our chances 
of containing an outbreak and beginning production of a 
pandemic vaccine, and we know that veterinarians are integral 
to these surveillance efforts.
    If you could just talk to our subcommittee a little bit 
more about the role of public health veterinarians, the role 
that they will play in the diagnosis of Avian flu, and if a 
highly pathogenic Avian influenza were introduced into the U.S. 
how would veterinarians work with other public health officials 
to help control the disease, minimize loss of life, and 
economic loss in this country?
    Dr. Pappaioanou. I will begin, I guess. There are a number 
of ways that public health veterinarians can make a huge impact 
in this area. The true prevention of a pandemic influenza comes 
with the prevention and control of Avian influenza in poultry. 
That is truly where the prevention of a pandemic is period. And 
recently just as an example about a year and a half ago I was 
in Vietnam actually working on a joint Avian influenza project 
that the University of Minnesota was embarking upon with 
Vietnam, and they asked if University of Minnesota's College of 
Veterinary Medicine could work with their veterinary school to 
develop curricula and training on Avian influenza because the 
veterinarians in Vietnam actually received very little training 
on poultry disease and health, and so this was a way, and many 
countries in Asia actually are looking to partner with U.S. 
institutions to develop this type of training which would build 
their capacity to detect the disease early and to control it at 
that level.
    Should the unfortunate, I mean the tragedy of a pandemic 
influenza occur it is veterinarians really in the U.S. Public 
Health Service at the various agencies working with their 
medical colleagues and its counterparts in the colleges working 
on disease surveillance, of providing education and training, 
that can provide search capacity for laboratories that exist, 
and very much engage in biomedical research that actually would 
lead to the development of a vaccine or the understanding of 
how immunity works or how it even crosses species. Texas A&M 
actually post Hurricane Katrina converted their large animal 
clinic into facilities to house people who had lost their 
homes, and so it was tremendous to see how they could then--
that partnership could really kick in on emergency preparedness 
and response. I will stop there.
    Dr. DeHaven. Congresswoman Baldwin, if I could add to that 
bringing a decidedly agricultural perspective to the table 
since that is my background, I think that H5N1 highly 
pathogenic Avian influenza is probably the current poster child 
for this whole issue of the convergence of animal health, 
public health, and as you pointed out environmental health as 
well. There is really a 3-prong approach with regard to H5N1 
from an animal disease perspective, and this still very much is 
an animal disease and the better we can control it in animals 
the less likely it is to mutate into that all feared pandemic 
virus. But the 3 prongs would be exclusion, let us keep it out. 
The second is early detection. If it arrives, let us find it 
very quickly, and then if we do find it rapid response to 
contain and eradicate it.
    There is ongoing surveillance in wild bird carried out by 
veterinarians involved in wild bird surveillance, in fact, the 
largest wildlife surveillance program of its kind anywhere in 
the world. There was ongoing surveillance by veterinarians 
involved in food animal practice in the industry who test 
virtually every flock of birds before they go to slaughter in 
the United States. In terms of laboratory capacity, Dr. Allen 
mentioned the National Animal Laboratory Network that we have 
so we have a network of laboratories that are all trained to do 
this diagnostic work, and then we have had in place and have 
certainly improved the overall planning for a response 
mechanism so while the efforts that I am talking about are 
certainly directed towards the disease in animals again if it 
finds its way here we would want to eliminate it in animals, 
and in doing so we protect the health of our public.
    Ms. Baldwin. Next I would recognize Mr. Murphy from 
Pennsylvania for questions.
    Mr. Murphy. Thank you, Madam Chairman, and thank you for 
introducing this bill. This is an important issue. I wish we 
had more veterinary schools in Pennsylvania, but we do have a 
great one there. I want to ask about a couple things about this 
and extend what we were just discussing with Avian influenza 
for the panel, and you have expanded some things that vets can 
do with regard to disease surveillance, education, training and 
research, serge capacity, et cetera. Do you see now that in the 
public health sector and in CDC for anybody on the panel that 
this is something that currently we need more veterinarians 
working on these issues now because of the potential what is 
occurring or are we invested enough, anybody? Yes, Doctor.
    Dr. Pappaioanou. Very briefly, the short answer is yes, and 
you could probably clone each veterinarian working in public 
health 10 to 20 times over.
    Mr. Murphy. We are not into cloning people.
    Dr. Pappaioanou. Well, to multiply them 10 to 20 times over 
to really have sufficient numbers to actually really engage 
with our human health counterparts on solving these problems. 
Because we are such a small profession right now, and so few 
veterinarians are actually working in public health, each 
public health veterinarian is actually a rare commodity, and 
therefore right now there has to be very strategic thinking 
really in terms of where they work because there are 
insufficient numbers to be there as part of the public health 
team across these areas.
    Mr. Murphy. Do other members agree with the same thing? Let 
me ask this. I think, Dr. Allen, you had mentioned about the 
tuition costs in particular that someone may graduate with over 
$100,000 in debt, similar to medical school as well. On this 
bill, I think it authorizes about $300 million if I am not 
mistaken in capital costs, which is good and helps with a lot 
of the necessary facilities. Does it do enough to take care of 
tuition costs?
    Dr. Allen. This bill will not address the tuition costs. 
There is a separate law, the National Veterinary Medical 
Services Act, that does help with a loan forgiveness program 
for graduates who go in underserved areas of veterinary 
medicine. What this bill will do is allow us to expand the 
capacity of our veterinary colleges so that we can admit more 
students. There may be some marginal return kind of economies 
of scale, if you will, that will help with the cost of per 
student but I don't expect that this bill will impact the 
tuition rates in our existing schools.
    Mr. Murphy. Do we have a number of what this bill will do 
to actually expand the number of veterinarian students across 
the country? Does anybody know?
    Mr. Kelly. The intent is that it would increase the 
enrollment by 423 students per year. That would be the 
objective of this bill.
    Mr. Murphy. And do we know in terms of numbers what the 
need is nationwide?
    Mr. Kelly. It is very difficult to come up with exactly the 
need. There is a study by the National Academy that was trying 
to look at that but we are not far enough along to give you 
numbers on that. We will happily give them to you when we have 
them.
    Mr. Murphy. Thank you. And with regard to some loan 
forgiveness programs is that an area we need to be expanding 
to? We talked a great deal about the public health sector. It 
is extremely important, the E. coli, the Avian influenza, a 
whole host of things. Do we have enough there in terms of the 
breadth and depth of our loan forgiveness programs now to take 
care of that, Dr. DeHaven?
    Dr. DeHaven. Congressman Murphy, thank you for bringing 
that up. We think the two bills in fact are very inextricably 
linked. The National Veterinary Medical Services Act has in 
fact been passed but it is authorized legislation and so far 
has only been funded at a level of about $1 million. We would 
anticipate to really have an impact and get veterinarians 
involved in food animal or public health practice to the areas 
where they are needed most that we would like to see funding in 
the level of $50 million to really have an impact. So this 
bill, the Veterinary Public Health Workforce Expansion Act, if 
you will, would increase the number of students going in the 
pipeline where the National Veterinary Medical Services Act, 
which authorizing legislation is already in place, with 
adequate funding would help us get those students, those 
graduates, to the locations where they are most needed, the 
underserved areas.
    Mr. Murphy. When you say underserved areas, are you talking 
about geographically underserved areas or are you talking about 
things, for example, people work for CDC or work for the 
military as employees of those branches of government that can 
have loan forgiveness while they put their time in. For 
example, every year they work they get a certain amount of loan 
forgiveness, is that what you would foresee?
    Dr. DeHaven. Actually both in that there are underserved 
areas within government and in private practice in terms of 
disciplines, if you will, but the bill is primarily intended to 
put graduates in geographical locations where there is the 
greatest need recognizing that foreign animal disease of human 
health implications could be introduced anywhere in the country 
if we don't have an adequate number of veterinarians in those 
locations then it is going to be a longer period of time before 
that disease is diagnosed.
    Mr. Murphy. If I could squeeze in one more brief question, 
I just want to know what this also does for undergraduate 
training as well. There is a graduate level of doctors of 
veterinary medicine. Do you see this bill, the Baldwin-
Pickering bill, of expanding also undergraduate level training?
    Dr. Allen. This bill is primarily intended to increase the 
capacity for the professional DVM program. Now there are a lot 
of students who are pre-vet, if you will, at the undergraduate 
level, who are disappointed by not being able to get into 
veterinary college so indirectly it will impact those students 
who are in animal and dairy science programs or what have you 
throughout the United States so indirectly it will increase the 
number of students who are able to attain admission to 
veterinary school.
    Mr. Murphy. Thank you very much, and thank you, Madam 
Chairman. I would love to be a co-sponsor of the bill.
    Ms. Baldwin. Excellent. We will add you. Next I would 
recognize Ms. Capps from California.
    Ms. Capps. Thank you, and I want to thank you again for the 
bill and for this hearing for our subcommittee because I have 
learned so much and I realize I already felt like I knew some 
things about health care and I didn't know a lot about this. 
And I am extrapolating that to my colleagues and then to the 
rest of us that you are really providing a valuable service 
here for us today. This is going to--there are a limited number 
of questions we can ask and so some of this might seem 
repetitive but I think a good case can be made to the public 
about Avian flu and that threat because people kind of 
understand what it is. And I know that, Dr. Kelly, we have been 
working on ways to prepare for an outbreak of Avian flu, and I 
want to look at what you have done in Pennsylvania, that Penn 
has been working with your state's Department of Agriculture to 
implement a statewide Avian flu surveillance program. Other 
states, Minnesota, I think has, but some states have really 
lagged in this area. And this partnership is something I am 
interested in. This probably falls outside the range of what 
the bill is. We are talking about a broader thing, but I want 
to understand more about how our veterinary schools are 
constrained in their ability to conduct surveillance, testing 
and training for infectious diseases. Is it because of limited 
funds strictly or are there some other things? I want to see if 
1232 would help the public health community in ways that maybe 
I don't understand yet.
    Mr. Kelly. Well, we certainly need to do more research on 
Avian influenza and ways in which we can limit the spread in 
animal facilities what we do is GIS lapping of the poultry 
facilities in Pennsylvania. That has come about because we have 
had repeated outbreaks of Avian influenza in Pennsylvania and 
other states have lagged simply because they haven't had the 
experience. There is much more we can do in terms of 
understanding the populations of poultry in the state and how 
we would control a disease should it arise, and that needs to 
be expanded across the country.
    Ms. Capps. I guess what I am getting at is I come from 
California. If you got all this research that you are compiling 
there and the first case or a bunch of cases happen in another 
state how good are we--and other people can jump into this too. 
I just think it is an interesting place. Right where we are 
today, do we have that structure in place and what do we do.
    Dr. Allen. Thank you for that question. At the University 
of Georgia we have a unit called the Southeastern Cooperative 
Wildlife Disease Study, and the purpose of this unit which has 
4 faculty, 2 of whom are veterinarians, is to conduct disease 
surveillance of wildlife through a 15-state region. There are 
similar units elsewhere in the country so to answer your 
question there are individuals who are funded for this purpose 
but each state typically does not have their own simply 
because, A, there is not funding for it and, B, there aren't 
really enough veterinarians in this area right now to provide 
the manpower.
    Ms. Capps. So this bill will help, maybe indirectly, but 
maybe we can educate ourselves well enough that we will say, 
now we need to do this because there is more that needs to be 
done. I guess I have been so focused on shortages of nurses, I 
just see so many corollaries. Our public health workforce is 
really short--and the fact that you are in Georgia and CDC is 
there, is there a role there too?
    Dr. Allen. Absolutely. The CDC has a program that allows 
our veterinary students to come to their facility for training, 
and it also helps with their recruiting effort to get more 
veterinarians in the public health arena.
    Mr. Capps. Somebody else might want to jump in. I am not 
going to go to my other question. I find this very fascinating, 
and this piece of it we haven't talked about yet, I don't 
think.
    Dr. DeHaven. Congresswoman Capps, thank you for the 
opportunity to add to that and again coming from an 
agricultural background there has been a--again I think Avian 
influenza is the perfect poster child of how we can work 
together cooperatively to develop programs that integrate 
public health and animal health. Dr. Kelly or Dr. Allen 
mentioned the National Animal Health Laboratory Network, which 
is a consortium of over 50 laboratories at the state diagnostic 
university diagnostic level that now have the capacity to do 
diagnostic testing on a number of diseases including highly 
pathogenic Avian influenza.
    Ms. Capps. Let me interject. Is the Federal government a 
partner with you in that?
    Dr. DeHaven. Indeed. It is a partnership between Federal 
government who oversees and administers the network and then it 
is the state laboratories that actually do the testing and much 
of that testing is done at the request of the affected industry 
so we at this point have virtually 100 percent surveillance on 
every commercial flock of birds. There are many states that 
have live bird markets where birds are brought from multiple 
locations for resale and you couldn't design a better way to 
spread disease but we have surveillance at those live bird 
markets as well. And so that partnership, I think, is working 
very well between the industry, the state diagnostic 
laboratories, and the state departments of agriculture who have 
response plans in places as well as these surveillance programs 
in place, so there is I think a very good cooperative effort 
there.
    One of the limiting factors though is the veterinarians 
that we have to participate in all of those activities, and 
ultimately it has to be those that work--either veterinarians 
or those that are working directly under the supervision of a 
veterinarian who have the oversight and make sure that we have 
all of our bases covered.
    Ms. Capps. I certainly can understand that from a public 
health nurse point of view because in the shortcuts that we 
want to take in cutting funds we try to think that a non-
professional or a different kind of professional person can 
understand that, and just as you mentioned earlier if you don't 
have that basic veterinary science which some other countries 
and other places might, we got to keep the quality really high 
as you are saying, and we need more veterinarians at the table 
of the interdisciplinary groups that are doing that. Thank you. 
I think I have gone over but this is very interesting.
    Ms. Baldwin. Next I recognize Mr. Pitts for questions.
    Mr. Pitts. Thank you, Madam Chairman. And it is a 
particular delight to welcome Dean Kelly and the panel here and 
to have heard your testimony. I had the privilege of working 
with the dean at New Bolton Center, which is in my district, 
for many years when I was in the state legislature. It is the, 
as I don't know if you said, the only vet school in 
Pennsylvania, and one of the premier veterinarian institutions 
in the United States. And with agriculture being so important 
in Pennsylvania, it plays a very key role in keeping ag number 
one. I know a few years ago you were at the forefront of 
catching the Avian flu epidemic in the ag poultry population.
    Dean Kelly, you mention in your testimony the new methods 
of livestock and poultry and wildlife methods that must be 
developed that require research and translation into the field. 
Could you just elaborate, does the university receive faculty 
grants to do research from Federal agencies? What types of 
grants are awarded on these issues?
    Mr. Kelly. We receive funds from the National Institute of 
Health. This would entirely be for diseases of animals that 
have relevance to human health. We receive funds much less from 
the USDA for various aspects of production agriculture. When we 
are talking about surveillance and new methods we don't have 
those resources. We need to find these resources because this 
has to be the future in surveillance of the livestock and 
poultry populations across the country. I think this is 
critically needed. There was one state grant that was given 
about 3 years ago but it is fairly limited funding, as you 
know, in those agencies. So we need funds because we have to 
really invent a new system for surveillance of livestock and 
poultry across the country.
    Mr. Pitts. And there is a need for more faculty to be 
hired.
    Mr. Kelly. Yes.
    Mr. Pitts. H.R. 1232 is designed to fund, I think, 
construction and capital costs, not training for advance 
research or faculty. Do you believe that that is a shortcoming 
in the bill or how would you----
    Mr. Kelly. In more advanced training typically a graduate 
student will work in the laboratory of a faculty so if you 
increase the laboratory space you increase the capacity to do 
advance training. There are funds in there for I think it is 
290 post-doctoral students because we need much more 
specialization and much more sophisticated training in so many 
areas that are relevant to veterinary medicine.
    Mr. Pitts. Dr. Allen, you wanted to add something.
    Dr. Allen. Yes. I appreciate being able to respond to that 
question. We regard it as the state's responsibility and the 
colleges' responsibility for faculty positions. The University 
of Georgia recently allocated three new faculty positions for 
infectious disease research specifically. So this bill does 
not--has nothing to do with faculty positions. The states that 
are awarded these grants will be for infrastructure expansion. 
When we expand our enrollment, we recognize we are going to 
have to increase the number of faculty and staff to keep our 
faculty to student ratio appropriate to have a good quality 
education but we recognize that as the state's responsibility.
    Mr. Pitts. And you heard the dean mention the $7 billion 
endowment. I know people are mumbling and questioning about the 
sources of funding. I know when we were in the state 
legislature we helped with capital costs at New Bolton, but 
would you expand a little bit about what is done with endowment 
money and how various pots and phases of funds are used to 
expand facilities and operations?
    Mr. Kelly. Endowments typically don't provide funds for 
facilities. Endowments typically would be for an endowed 
professorship in a particular area that is of interest to the 
donor. So the endowment is overwhelming focused on faculty 
particularly in specific areas. In clinical veterinary medicine 
we get endowments in companion animal veterinary medicine and 
in equine veterinary medicine. Basic sciences there is no 
endowed professorships, and in public health I don't think we 
have a single one. So it is very focused. It doesn't cover the 
whole of the needs of the veterinary school. It is important 
sources of funding no doubt but it is not going to take care of 
public health needs, I can assure you.
    Mr. Pitts. Would those who give have the opportunity to 
require that you spend it in certain ways? For instance, I know 
with large animals out at New Bolton and the horse industry, 
the racing industry, you are required to spend money in certain 
ways without a doubt, is that correct?
    Mr. Kelly. That is exactly correct, Congressman. Yes.
    Mr. Pitts. Dr. Allen.
    Dr. Allen. Endowments that are receive the typical spending 
limit will be 5 percent of that endowment so even if someone 
were to give you a million dollar gift it is only going you 
$50,000 amount of money annually that you can spend. And they 
are typically, as Dr. Kelly indicated, for the research efforts 
and for recruitment purposes to get new faculty on board. 
Annual operating budget for a veterinary college averages 
around $56 million. Very little of that is endowment income or 
private gifts. Most of it is state appropriation, service 
income from hospital activities, research activities, and a 
very small amount of it is private giving.
    Mr. Pitts. And really there is none given for public health 
purposes?
    Dr. Allen. Very rarely is any of the money given for public 
health purposes. We did have one endowment last year that was 
donated for infectious disease professorship to help us recruit 
more faculty members to do this important work, but again it is 
pretty rare for it to be in a public health arena.
    Mr. Pitts. Well, my time is up, but thank you for your 
testimony. Dean Kelly, it is great to see you, and thank you 
for your leadership for many years.
    Mr. Pallone. Thank you. The gentleman from New York, Mr. 
Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. Let me begin 
by thanking you for your testimony. I thought it was very, very 
informative. Let me begin by asking you, and I am in strong 
support of H.R. 1232, the Health Workforce Expansion Act, but 
is it really enough? Let us go right down the line starting 
with you, Dr. Allen. Just go right down the line.
    Dr. Allen. Do you mean is the legislation itself enough or 
is the amount of money enough?
    Mr. Towns. Both.
    Dr. Allen. If it were fully funded as the bill is written. 
We did do feasibility studies of what it would take to expand 
our veterinary colleges to address the shortage as it was 
estimated at that time, and we do feel that the amount in the 
bill will help the existing colleges expand sufficiently for 
the future. And as far as the bill itself, we would welcome the 
staff of the subcommittee to help us with the language if it is 
felt it were needed to more clearly describe what the intended 
purpose is, but if the desired outcome--if the bill is funded, 
I think the desired outcome will be met.
    Mr. Towns. Thank you. Dr. Kelly.
    Mr. Kelly. I think, and Dr. Allen used I think the very 
important phrase, and that is if the bill is fully funded. If 
it is not, we are going to continue to be short. We are looking 
at over a 15, 20-year period. If you look over a much longer 
period there is not going to be enough. It is crucial that we 
get the funds to at least address the demand and the need. For 
example, I used the figure that there were 1,200 Americans 
getting veterinary education overseas. That is 400 students per 
year. We can accommodate that number with this current bill. 
So, as I say, if it is fully funded it will take care of the 
need.
    Mr. Towns. Dr. DeHaven.
    Dr. DeHaven. Thank you. I would agree with my colleagues 
that if it is written and fully funded it would provide enough 
capacity. Recognize that today the majority of graduates out of 
our 28 veterinary colleges are going into companion animal 
practice, and that is critically important. The human animal 
bond is stronger than ever before and indeed we add to our 
public health through our association with pet animals so it is 
not that we are talking about a huge number of new graduates 
that need to go into this public health arena with the 
provisions in the bill. If in fact that increased capacity were 
devoted to the public health arena, we feel that it would meet 
the need.
    Mr. Towns. Thank you.
    Dr. Pappaioanou. I would agree with my colleagues although 
I would add that there really is an urgency about this, and not 
only absolutely to begin to meet the needs in public health but 
also from a construction point of view that with construction 
costs, and I am sure many of you may have this experience, but 
every day or week or month you delay when you talk back with 
contractors your cost just went up. So I think the more quickly 
this bill could be passed and implemented and funded then 
adequate study has gone into the figures that have gone into 
it, but if there is a lot of delay construction costs do go up, 
and I think that would impact on the numbers.
    Mr. Towns. Right. I think you, Dr. Kelly, mentioned about 
the amount of students that are being trained in foreign 
countries. How many of them return, would you know? How many of 
them would return after training?
    Mr. Kelly. I would think these are American students. The 
vast majority will come back to this country, I would fully 
expect. There students who have not been able to get into a 
veterinary school in this country and desperately want to 
become veterinarians but there will be deficiencies in their 
education and that is a significant problem. Just to add, if I 
may, we are concerned about public health, students going into 
public health. There is a remarkable change in our students in 
their interest in public health which frankly wasn't there 5 or 
6 years ago. To give you an example, I think this weekend there 
is CDC Day down in Atlanta. There are 300 veterinary students 
going down to CDC Day to learn more about CDC and public 
health, and it is an example of the change of interest amongst 
our students.
    Mr. Towns. Thank you. Thank you very much. Yes, Dr. Allen.
    Dr. Allen. One thing I wanted to point out is that although 
there are a lot of students, American students, who don't gain 
entrance to a U.S. veterinary college who end up going 
overseas, first of all, they are not trained in the public 
health arenas that we are talking about. And, secondly, the 
cost for their education to them, they end up with an 
educational debt that is staggering, $200,000 to $300,000 per 
student. The likelihood that they are going to go into a public 
health career with that kind of educational debt is very low. 
So although there are students that are able to get an 
education in veterinary medicine it is not an education that 
will fulfill the need we are talking about today.
    Mr. Towns. Let me ask, is there a preference given to state 
students in terms of grants, is there a preference?
    Dr. Allen. There is a preference given to students from 
that state for admission to veterinary college, yes, but in 
terms of scholarships for veterinary college it depends on the 
source of the funds. Typically a scholarship is from a private 
donor, and we have many private donors who will believe it or 
not stipulate what county the student should be from. So 
indirectly, yes, there is a preference for in-state students 
because of the source of our scholarship funds tends to be from 
our alumni from our state.
    Mr. Towns. Go ahead, Dr. Kelly.
    Mr. Kelly. Most schools have an in-state and an out-of-
state tuition. For example, there is a $10,000 difference in 
the cost of your education if it is in-state or out-of-state. 
The taxpayers of Pennsylvania bear the brunt of the cost of our 
school and our education, and it seems to me only reasonable 
that there would be a price differential as far as the students 
from out of state are concerned.
    Mr. Towns. I was actually talking about in terms of a 
preference in terms of admissions.
    Mr. Kelly. We would admit--at Penn we will admit 60 percent 
of the students are Pennsylvania residents, 40 percent come 
from out of state. That varies with the different colleges 
though.
    Mr. Towns. Let me ask, this is just for help.
    Mr. Pallone. Just let me remind the gentleman he is 2 
minutes over, but we will take one more.
    Mr. Towns. I yield. I am sorry. Thank you very much. Let me 
thank all of you for your testimony. Thank you so much. Thank 
you, Mr. Chairman.
    Mr. Pallone. I am sorry. I recognize the gentlewoman from 
Oregon, Ms. Hooley.
    Ms. Hooley. Thank you, Mr. Chair. I am proud to represent a 
veterinary school in my state, Oregon State, and I am a co-
sponsor of this bill and proud to do that. Oregon State 
includes public health as part of its core curriculum, and it 
is in the process of developing a collaboration between the 
school of public health and the school of pharmacy trying to 
strengthen public health. I have a question. Dr. Allen, you 
mentioned that 16 out of the 28 veterinarian medicine schools 
now have dual degrees, and what is the capacity of those 16 
programs and what educational paths do most public health 
veterinarians pursue? Do they do it--how do we build our 
capacity? Is it in those dual programs or traditional 
veterinary college?
    Dr. Allen. As far as the capacity of the DVM, MPH programs, 
which I think is what you were referring to, at University of 
Georgia we have scholarships for two students per year. 
However, we don't have any limitation in the number of students 
who can enroll. We only have a limitation in the number of 
scholarships. So consequently we typically will have of course 
the two students who get scholarships but also additional 
students who will enter the dual degree program. I am afraid I 
can't speak for the other colleges of veterinary medicine as 
far as what their capacity is for the number of students who 
will graduate per year. So right now at Georgia though, we are 
only doing say three students per year/
    Ms. Hooley. Yes.
    Dr. Pappaioanou. I can provide some information on the 
other schools. The University of Minnesota, for example, has 
close to 40 or 50 students who are enrolled in the dual degree 
DVM, MPH program there. That program actually accepts students 
from several of the other schools in the Midwest, Michigan 
State for one, Ohio, Indiana, et cetera, that come in and 
actually participate in that program, and all of them report 
absolutely, you know, the interest of the students really going 
off the chart, so the student interest is there. In addition to 
the 16 schools with the dual degree programs there are at least 
6 others who have public health programs, and again they are 
seeing a growing number of students. Where these students go 
when the leave are many of the opportunities that I alluded to 
in my testimony and across the Federal government, the state 
government, local governments working in academia, even 
international organizations so there is a tremendous 
opportunity out there for these graduates.
    Ms. Hooley. Does anyone else want to comment? So you think 
the dual program, dual degree program, probably produces more 
of our public health veterinarians?
    Dr. Pappaioanou. Absolutely.
    Ms. Hooley. OK.
    Mr. Kelly. We will form a dual degree at Penn. We just 
haven't gotten far enough along in doing it.
    Ms. Hooley. When I talked to Oregon State, their 
veterinarian medical association, they indicate there is a lot 
of reasons why there is a decreasing supply of food animal 
practitioners, and one of the main reasons is a lack of earning 
a decent living in that area. They serve in rural communities. 
I look at one of my counties in my district, for example, is 
Tillamook County. They have lots and lots of dairy farms. 
Having a food animal practitioner is really important in those 
areas. How do we get more veterinarians into the rural 
communities? Do we have an answer? Does this bill help that?
    Dr. DeHaven. If I could.
    Ms. Hooley. Go ahead.
    Dr. DeHaven. Thank you. I think we all want to answer that 
one, Congresswoman.
    Ms. Hooley. Good. I would like to hear from all of you.
    Dr. DeHaven. I think there is a couple different ways. 
Really the recruitment needs to start with the pre-veterinary 
students or even before that to generate an interest in this 
food animal public health arena, and we are, as Dr. Kelly 
mentioned, already seeing that increase in some of these 
disciplines that heretofore there hadn't been a lot of 
interest. This bill will increase or this bill if passed would 
increase the number of students in the pipeline for these 
potential kinds of jobs. It is the National Veterinary Medical 
Services Act that is really intended to give veterinarians who 
have already graduated through a loan repayment program into 
these underserved areas. It is particularly important in the 
food animal arena, and again making this linkage between food 
animals and public health, in that it is those individuals that 
are most likely to be the first to identify a disease in 
animals that have public health implications, and so this is 
critically important.
    There will actually be a hearing on the National Veterinary 
Medical Services Act talking about the need for funding for 
that program but also the need for the U.S. Department of 
Agriculture to do the regulations, promulgate the regulations 
that will implement this program and identify such things as 
what are under represented areas and how do we identify them.
    Ms. Hooley. Do you think this bill will help?
    Dr. DeHaven. It certainly would help in terms of getting 
more students in the pipeline that would be interested in going 
to those areas in that kind of work.
    Ms. Hooley. Dr. Allen, maybe your idea of having these 
scholarships from a county might not be such a bad idea. Go 
ahead. Anybody else that wants to answer that question.
    Mr. Kelly. One of the issues, this is a problem of rural 
America in general, and to support a veterinarian in an area 
needs a certain value of animals in a geographic area, and what 
you have to do is--increasingly you will find veterinarians 
still in Lancaster County in Pennsylvania, which is a very 
heavy dairy industry. What you have to do is expand that 
geographic area, and I think we have to use digital 
technologies on the farms so you have every day surveillance, 
electronic communication to a veterinarian who is in a central 
office working with somebody who is trained as a technician to 
provide the every day surveillance on the farms. I think that 
is the direction that I believe we must progress in.
    Ms. Hooley. Dr. Allen.
    Dr. Allen. You asked a question of how we can address this 
lack of veterinarians in rural America, and I think it is two 
main things. One is financial through scholarships and loan 
forgiveness programs. Nothing helps address a shortage like 
money and so what we have done at Georgia is a loan forgiveness 
program that has been suggested and proposed to our state 
legislature, but we have also had the food animal veterinary 
incentive program whereby we are identifying students who come 
from rural Georgia, in high school we identify them, and put 
them into this program that nurtures their interest and helps 
them through the undergraduate years because we know if a 
student comes from an area they are much more likely to go back 
to that area. And so we have started this program to try to 
address that need in rural Georgia, and I know there are other 
programs elsewhere in the country in other states that have 
done the same thing.
    Mr. Pallone. We are almost at three now although it is very 
interesting.
    Ms. Hooley. This whole thing is totally fascinating.
    Mr. Pallone. I agree. I agree. I am sorry to cut you off 
but we are going to have a vote pretty soon on the SCHIP 
override so we have to conclude. I think that concludes all our 
questions by the members. I do want to thank you all though. 
This has really been enlightening to us. I mean some members 
obviously represent areas, rural areas, and have more knowledge 
than others, but it has been very helpful I think to us in 
terms of knowing the significance of this legislation. And I 
would also encourage members if they are from more urban or 
suburban areas like myself to get out to some of these colleges 
like I did at Dean Kelly's initiative because otherwise you 
don't really know what it is all about. So thank you very much.
    Let me mention that members can still submit written 
questions for the record so within the 10 days they have to 
submit those so you may get additional questions from us to 
answer in writing, and the clerk would notify your offices if 
that happens and the procedures and all that. But again thank 
you all, and thank you, Congresswoman Baldwin, and without 
objection this meeting of the subcommittee is adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
